<html>
<title> - TO PREPARE FOR THE AGRICULTURAL RESEARCH, EXTENSION, AND EDUCATION TITLE OF THE UPCOMING FARM BILL</title>
<body><pre>[Senate Hearing 107-304]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-304
 
  TO PREPARE FOR THE AGRICULTURAL RESEARCH, EXTENSION, AND EDUCATION 
                                TITLE OF
                         THE UPCOMING FARM BILL
=======================================================================



                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2001
                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                        U.S. GOVERNMENT PRINTING OFFICE
77-981                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  RICHARD G. LUGAR, Indiana, Chairman

JESSE HELMS, North Carolina          TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  THOMAS A. DASCHLE, South Dakota
PETER G. FITZGERALD, Illinois        MAX BAUCUS, Montana
CRAIG THOMAS, Wyoming                BLANCHE L. LINCOLN, Arkansas
WAYNE ALLARD, Colorado               ZELL MILLER, Georgia
TIM HUTCHINSON, Arkansas             DEBBIE A. STABENOW, Michigan
MICHEAL D. CRAPO, Idaho              BEN NELSON, Nebraska
                                     MARK DAYTON, Minnesota

                       Keith Luse, Staff Director
                    David L. Johnson, Chief Counsel
                      Robert E. Sturm, Chief Clerk
            Mark Halverson, Staff Director for the Minority

                                  (ii)

  














                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

To Prepare for the Agricultural Research, Extension, and 
  Education Title of the Upcoming Farm Bill......................    01

                              ----------                              

                        Tuesday, March 27, 2001
                    STATEMENTS PRESENTED BY SENATORS

Lugar, Hon. Richard G., a U.S. Senator from Indiana, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    15
Hutchinson, Hon. Tim, a U.S. Senator from Arkansas...............    17
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............    02
                              ----------                              

                               WITNESSES

Hefferan, Colien, Administrator, Cooperative State Research, 
  Education, and Extension Service, U.S. Department of 
  Agriculture, Washington, DC....................................    04
Horn, Floyd P., Administrator, Agricultural Research Service, 
  U.S. 
  Department of Agriculture, Washington, DC......................    07

                                PANEL I

Caspers, Jon, Board Member, National Coalition for Food and 
  Agricultural Research and Vice President, National Pork 
  Producers Council, Swaledale, Iowa.............................    24
Kirschenmann, Fred, Director, Leopold Center for Sustainable 
  Agriculture, Ames, Iowa........................................    28
Lemmermen, Jay, Chair, Animal Ag Coalition and Director of 
  Quality 
  Assurance, Southeast Milk, Inc., Ocala, Florida................    26
Robertson, Phil, Member, Committee on an Evaluation of the U.S. 
  Department of Agriculture National Research Initiative 
  Competitive Grants Program, National Research Council/National 
  Academy of Sciences, and 
  Professor, Department of Crop and Soil Sciences, Michigan State 

  University, Hickory Corners, Michigan..........................    32
Stuckey, Richard E., Executive Vice President of Cast, The 
  Council for 
  Agricultural Science and Technology............................    30

                                PANEL II

Chicoine, David, Chair, National Association of State 
  Universities and Land Grant Colleges Board on Agriculture, and 
  Dean, College of Agricultural, Consumer, and Environmental 
  Sciences, University of Illinois, Urbana,
  Illinois.......................................................    41
Lechtenberg, Vic, Chair of the National Agricultural Research 
  Extension, Education and Economics Advisory Board and Dean of 
  Agriculture, Purdue University, West Lafayette, Indiana........    45
Phills, Bobby, Chair of the 1890 Legislative Committee and Dean 
  and Director of Land Grant Programs, College of Engineering 
  Sciences, Technology and Agriculture, Florida A&M University, 
  Tallahassee, Florida...........................................    43
                              ----------                              

                                APPENDIX

Prepared Statements:
    Harkin, Hon. Tom.............................................    52
    Caspers, Jon.................................................    70
    Chicoine, David..............................................    98
    Hefferan, Colien.............................................    53
    Horn, Floyd P................................................    61
    Kirschenmann, Fred...........................................    83
    Lechtenberg, Victor L........................................   113
    Lemmermen, Jay...............................................    75
    Phills, Bobby................................................   109
    Robertson, Philip G..........................................    94
    Stuckey, Richard E...........................................    91
Document(s) Submitted for the Record:
    The American Society of Plant Physiologists..................   129
    Barcinas, Jeff, D.T., Ph.D,..................................   125
    Cochran, Hon. Thad...........................................   124
    Roberts, Hon. Pat............................................   122















                       HEARING TO PREPARE FOR THE



  AGRICULTURAL RESEARCH, EXTENSION AND EDUCATION TITLE OF THE UPCOMING


                               FARM BILL

                              ----------                              


                        TUESDAY, MARCH 27, 2001

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9 a.m., in room 
328-A, Senate Russell Building, Hon. Richard G. Lugar [Chairman 
of the Committee] presiding.
    Present: Senators Lugar, Thomas, Allard, Hutchinson, 
Harkin, Conrad, Lincoln, and Stabenow.

OPENING STATEMENT OF HON. RICHARD G. LUGAR, A U.S. SENATOR FROM 
                INDIANA, CHAIRMAN, COMMITTEE ON 
              AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. This hearing of the Senate Agriculture 
Committee is called to order.
    Today the committee holds a hearing to prepare for the 
Agriculture Research, Extension and Education Title of the 
upcoming Farm bill.
    We look forward to hearing about current research programs, 
learning about implementation of the 1996 Farm Bill and the 
1998 Agricultural Research Bill and gathering recommendations 
for ways to strengthen and improve our programs.
    For our preparation, we need to pose several obvious 
questions and take stock of our current situation. What is the 
current status of Federal research programs and funding? What 
gains have been achieved through implementation of the 1996 
Farm Bill and the 1998 Agricultural Research Bill? Where do we 
go from here?
    Should we have funding goals such as doubling of 
agricultural research, as many are now proposing? I am a 
proponent of increased investment in agricultural research.
    Nobel Peace Prize winner and father of the Green 
Revolution, Norman Borlaug, whom I meet with on occasion and 
who has testified frequently before our committee, endorses the 
need to double funding. I believe this is a critical need.
    But I am interested in how others have documented this 
critical need. While we might not be able to fully address that 
today, it may also be helpful to review what has been 
accomplished through Federal funding of agricultural research.
    What are the breakthroughs or discoveries that would not 
have been achieved in the absence of this funding? Is U.S. 
agriculture losing ground against some of our competitors 
because Federal research funding has been flat for so long?
    We will also be interested in learning more about those who 
are just starting out as researchers in the agricultural area.
    At one of our committee's four hearings about agricultural 
research in 1997, the President of the National Academy of 
Science testified that from his interaction with scientists and 
graduate students, it was his view that many of the most 
ambitious young people who were becoming researchers were 
choosing to go into biomedical research rather than 
agricultural research because more competitive grant funding 
was available for that area.
    As the cornerstone of the 1998 Agricultural Research Bill, 
I proposed a new competitive grant program initially for future 
agriculture and food systems. The program was funded at $120 
million annually for five years. The funding was to be devoted 
to critically needed research in the areas of future food 
production, natural resource management and increased farm 
income.
    While this new funding was intended to augment research 
funding provided by Congress through the annual appropriation 
process and not to replace it, it has been difficult to ensure 
that funding would be maintained for this new program. In fact, 
USDA was prohibited from using funds to implement the program 
in fiscal year 1999.
    I was heartened that USDA was able to finally award the 
first grants under this new program last fall. There was an 
enthusiastic response to this new competitive grant program.
    One thousand proposals involving 500 scientists and 
educators seeking funding of over $1.4 billion were submitted. 
However, the USDA was able to award funding to just 86 
projects.
    In the appropriation process, funding was maintained for 
this current fiscal year, but eligibility has been limited to 
colleges and universities, precluding Federal research 
agencies, national laboratories or private research 
organizations from competing for the funding. USDA is now 
soliciting proposals for funding to be awarded later this 
fiscal year.
    I look forward, as do my colleagues, to hearing the 
testimony today. We will hear from the United States Department 
of Agriculture, from producer representatives, researchers, 
scientific societies and the land grant institutions.
    I look forward to working with my colleagues on the 
committee and all of those who are testifying as we work toward 
preparing for an agricultural research, extension and education 
title in the next Farm bill.
    I would like to call upon my colleague, Senator Stabenow of 
Michigan, for her opening comments.

   STATEMENT OF HON. DEBBIE A. STABENOW, A U.S. SENATOR FROM 
                            MICHIGAN

    Senator Stabenow. Well, good morning, Mr. Chairman. It is 
wonderful to be here with you this morning and to make some 
opening comments regarding the research, extension and 
education title of the Farm bill. I appreciate the opportunity 
to be here with you on this important topic.
    I share your desire and statements regarding doubling of 
the funding. I think it is a very important priority for the 
Farm bill.
    As you may know, Mr. Chairman, I am a product of both 
undergraduate and graduate studies at Michigan State 
University, which is a premier research and education 
institution. I also have to say it is a premier basketball 
institution. I am inviting all of you to join me in Minnesota 
on Saturday as we root in the Final Four. So, it carries over, 
the gene pool goes from agricultural research to sporting 
events to many other areas of our important university.
    MSU has been not only my home in terms of my studies, but I 
represented them for many years at various levels. I am very 
proud of the work they do and the contributions that they make 
to the topic that we are talking about today.
    When I was on the House Agriculture Committee, we debated 
the Agricultural Research Reauthorization. I think that we made 
a number of advances in ensuring adequate resources for 
agricultural research and extension activities, including 
creating a new ARS research initiative to battle Wheat Blight, 
which I authored.
    I know that much more needs to be done in that area. 
Agricultural research and extension keep our agricultural 
economy armed with the tools that it needs to continue to 
produce the most plentiful and safe food and fiber in the 
world. I am hopeful that the new Farm bill recognizes the need 
to increase our national investment in agricultural research 
and extension, as the Chairman has indicated.
    The research, extension and education title of the Farm 
bill must address the needs of agriculture in the 21st Century. 
New challenges in food safety and diseases require a 
reinvigorated approach to research and consumer education.
    I also believe that biomass fuels and biotechnology hold 
great promise in developing new markets for agriculture, but 
that tremendous work is required to make this happen safely and 
to ensure consumer confidence.
    I look forward to working with the committee to increase 
our efforts in research, extension and education during our 
farm bill debate.
    Today, I would like also to welcome one of the witnesses 
who is a fellow Spartan, Professor Philip Robertson. Professor 
Robertson is the Professor of Crop and Soil Sciences at 
Michigan State University, a Director of the NSF long-term 
ecological research program in agricultural ecology at the W. 
K. Kellogg Biological Station.
    His research is supported primarily by NSF and USDA. He has 
made significant contributions in the field of terrestrial 
biochemistry. Some of his research includes investigating 
nitrogen cycling in row crop ecosystems, the impact of trace 
gas fluxes from agricultural landscapes on global atmosphere 
chemistry and soil and carbon sequestration.
    Not only has Dr. Robertson served as a member and chairman 
on a variety of national and international scientific 
committees, I would like to also mention that he is an active 
member of his community as president of the Plainwell Community 
Schools Board of Education, which we know also is a tough job.
    So, I would welcome Dr. Robertson. It is a privilege to 
introduce you. I know that you will be testifying on an issue 
that you know a great deal about, the National Research 
Council's report on the National Research Initiative, as you 
served as a member of the council and contributed a great deal 
to the report that you will be summarizing today.
    So, again, welcome. I am looking forward to the testimony, 
Mr. Chairman.
    The Chairman. Well thank you very much, Senator Stabenow. 
It is great to have such an enthusiastic ally as yourself in 
this quest. We wish you the best at Michigan State, both 
academically and athletically as the week proceeds.
    Let me say that staff has visited with our first two 
witnesses from the United States Department of Agriculture and 
indicated that that we would hope that your testimony would be 
given in a 10 minute period, more or less. Then, with the 
following two panels, that each of the witnesses would 
summarize in five minutes.
    Your written testimony, that you have prepared will be made 
a part of the official record, as well as our questions and 
answers as we proceed.
    The Chairman. It is a privilege to have as our first panel 
of witnesses, Dr. Colien Hefferan, who is Administrator of the 
Cooperative State Research, Education, and Extension Services, 
United States Department of Agriculture in Washington, D.C., 
and Dr. Floyd P. Horn, Administrator of the Agricultural 
Research Service, United States Department of Agriculture, 
Washington, D.C.
    Dr. Hefferan, would you proceed, to be followed by Dr. 
Horn. Then we would like to have the opportunity to question 
you.

         STATEMENT OF COLIEN HEFFERAN, ADMINISTRATOR, 
          COOPERATIVE STATE RESEARCH, EDUCATION, AND 
             EXTENSION SERVICE, U.S. DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC

    Ms. Hefferan. Thank you. Mr. Chairman, Senator Stabenow, 
thank you for the opportunity to appear before this committee.
    Today I would like to describe the steps that our agency 
has taken to implement the research provisions of the 1996 FAIR 
Act and the 1998 Agricultural Research Extension and Education 
Act, an act which I call ``our era,'' a term which almost no 
one else has adopted.
    As information technology has revolutionized the global 
economy and technological innovation is sweeping across the 
country, agricultural science and education has changed 
dramatically in the last decade.
    The food and fiber production systems are changing before 
our eyes. CSREES is the agency of USDA which engages our 
national, widely dispersed, university-based knowledge system 
to develop science-based solutions and technologies to help 
farmers, rural communities and others remain productive and 
profitable in the face of these changes and helps consumers 
navigate the growing complexities of the agricultural system.
    CSREES accomplishes its mission by supporting research, 
education and extension activities through peer review, 
competitive research and education and education and extension 
grants, formula-funded support for all land grant institutions, 
and Congressionally determined special projects.
    Each of these types of work supports a broad portfolio in 
support of American agriculture. The formula programs provide a 
critical base of support for agricultural experiment stations 
and for cooperative extension systems. They are highly 
leveraged by State and local funds.
    The National Research Initiative supports investigator-
initiated basic and mission-focused research, which is really 
the seed corn from which new technology and development occurs 
in Agriculture. The new program established in the 1998 bill, 
the Initiative for Future Agriculture and Food Systems, as well 
as programs supported under Section 406 of that bill for 
integrated research, education and extension, link together on 
the ground in a problem-focused way the research, extension and 
education system. I will talk about those in some depth in a 
few moments.
    Our higher education portfolio is designed to expand the 
educational capacity and address the issues that have been 
raised over the last decade about the future for food and 
agriculture as it is determined by the scientific capacity in 
those fields.
    These higher education programs are particularly important 
as they support education and extension at historically Black, 
tribal colleges and at Hispanic-serving institutions.
    A number of other programs including the Fund for Rural 
America research education and extension grants program and the 
Small Business Innovation Research Grants Program are some of 
the things that in collaboration with the Congressionally-
targeted programs and other national programs such as 
Integrated Pest Management and Expanded Food and Nutrition, 
create the broad portfolio that brings the capacity of 
America's universities to address issues in agriculture.
    It is through this collection of programs that we have been 
able to achieve important results. There are many examples of 
work which is funded initially through the National Research 
Initiative and is translated into applied problems solving 
through the initiative established in the 1998 bill and becomes 
the foundation for education and extension programs.
    Our agency was formed in 1994 with the reorganization of 
the department. But the bringing together of research and 
extension was really enhanced through the 1998 Agricultural 
Research Reform Act. Prior to that we really had no mechanisms 
by which we could integrate the grants programs to link 
together knowledge generation and the use of that knowledge.
    The law that was passed in 1998 essentially allows us and 
gives us the tools needed for that integration. It also places 
enormous emphasis on stakeholder input as the method by which 
we identify research priorities and establishes peer review and 
multi-institutional and multi-State mechanisms as the means by 
which we affect our goals.
    Let me begin by telling you a bit about the Initiative for 
Future Agricultural and Food Systems, which, as you identified, 
provided $600 million over a five-year period in mandatory 
funding to support new problem-focused work in agriculture.
    In the first year in which we were allowed to administer 
the program, fiscal year 2000, we were only able to award 
grants to eight and a half percent of those who applied. Of the 
1,000 proposals that we received, one-fourth of those proposals 
were deemed as fully fundable, excellent research. Again, of 
that group, fewer than 90 were actually funded.
    But the work that was funded focuses on a number of 
critical issues, including development of biobased products for 
solvents, for greases and for latex substitutes. It includes a 
consortium of institutions in Texas, Florida and California 
that is looking at the reduction of microbial contamination in 
the production of fruits and vegetables, both the mechanisms to 
do that and farm worker education and other extension 
education.
    There is a consortium of University of Tennessee and Purdue 
researchers which is developing natural resource management 
solutions for private landowners. There also are consortia of 
institutions that are helping producers and consumers to 
understand the application of new agricultural biotechnologies. 
One of these consortia includes 1890 land grant institutions 
and is focused on developing and delivering biotechnology 
applications for underserved farm communities.
    This initiative has really resulted in a fundamental shift 
in how CSREES manages its portfolio, drawing upon substantial 
stakeholder input and bringing together in the peer review 
system and the merit review system scientists, educators and 
practitioners.
    Well, one of the intents of the 1996 and the 1998 bill were 
to involve more stakeholders. The first line of stakeholder 
involvement that we have benefited from is the National 
Agriculture Research Extension Education and Economics Advisory 
Board. As Administrator of CSREES, I like to find an acronym 
that is more difficult than our own agency name, and that one 
does it.
    This body is really our first contact for taking the pulse 
of the stakeholder community when seeking to implement new 
programs or taking existing programs in new directions. This 
group, the Advisory Board, has been critical to us in the 
implementation of the Fund for Rural America in providing 
substantive guidance as well as the Initiative for Future 
Agriculture and Food system.
    We also have developed a number of new practices for 
seeking stakeholder input on each of our programs including 
requesting in our Requests for Proposals input on the nature of 
what we are asking for as well as responses.
    As I mentioned a moment ago, we also have revised our peer 
review system, where appropriate to use not only scientific and 
educational peers, but lay people who have an understanding of 
the issues to be addressed are included in some of our 
programs. Each of our peer review panels is managed jointly by 
a USDA staff member and a nongovernment, scientific expert who 
work together to recruit peer panel members that represent our 
diverse institutions and stakeholders.
    Well, let me go on to a second theme in the past 
legislation and that is that we focus on multi-institutional 
and multi-disciplinary projects. It has been clear as we look 
at genetics or water quality or insect or microbial ecology or 
consumer behavior that no one discipline is sufficient to 
address the complex issues facing agriculture.
    While we have had a longstanding program of multi-
institutional work through the Hatch Regional Research Program, 
now through the 1998 legislation we are implementing a program 
of multi-institutional, multi-disciplinary work that is 
supported through the formula based programs at the Land Grant 
Universities. Each institution is working collectively across 
State lines and across disciplines and functions at their 
institutions to make the highest and best use of the formula 
based dollars.
    The mandate of the law strengthens the commitment of the 
universities to achieving the goals of problem solving through 
agriculture. We have also tried to model within the agency the 
goals of multi-institutional and multi-disciplinary work by 
mounting more of our programs in collaboration with other 
Federal organizations.
    We have strong collaborations with NSF in the area of 
genomics research. We are working with the Department of Energy 
and NSF to complete the Arabadopsis Genomic Sequencing Program 
and have initiated new programs with NASA, with EPA and with 
the Food and Drug Administration where there are clear points 
of tangency between the agenda of those agencies and 
Agriculture bringing new resources and new opportunities to 
utilize the capacity of the universities.
    Well, let me end by reiterating that the principles of the 
1996 and the 1998 legislation, including stakeholder input, 
multi-disciplinary work and problem-focused work has aided the 
agency in refocusing its programs on issues that are critical 
to American agriculture. But we recognize there are two things 
that are critical to us as we continue. That is that we need to 
build more collaborations with other Federal organizations to 
address the points of tangency between our programs and theirs, 
including those between agriculture and medical research, and 
that we need to be able to continue to work toward systems that 
are able to respond quickly to emerging problems where the 
science base needs to be applied to solving those problems.
    Thank you.
    The Chairman. Thank you very much, Doctor.
    [The prepared statement of Ms. Hefferan can be found in the 
appendix on page 53.]
    The Chairman. Our friend, Dr. Horn, will you give us your 
testimony?

          STATEMENT OF FLOYD P. HORN, ADMINISTRATOR, 
AGRICULTURAL RESEARCH SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                         WASHINGTON, DC

    Mr. Horn. Mr. Chairman and members of the committee, I am 
Floyd Horn, Administrator of the Agricultural Research Service. 
ARS is the intramural research organization of the U.S. 
Department of Agriculture.
    I am pleased to be here today to update you on our response 
to the directives of the 1996 Farm Bill and the 1998 Research 
Title and to talk about what ARS is doing for America and 
American agriculture. First, I would like to tell the committee 
how ARS responded to the expanded research purposes in the 1996 
Farm Bill and how we implemented the priority setting and peer 
review sections of the 1998 research title.
    Frankly, most of the provisions of these two bills were not 
directed at ARS. Those sections that were, though, provided the 
impetus for us to take a fresh look at our programs and 
accomplishments to more fully engage our stakeholders and to 
refine our peer review processes.
    This committee's interest and input into those activities 
is acknowledged and appreciated and I believe ARS is a much 
stronger organization today because of that interest.
    To fully integrate the tenets of the eight agricultural 
research purposes into the agency's every day processes, ARS 
incorporated them into its strategic plan. Indeed, they are in 
fact the basic framework for our strategic plan.
    Most importantly, ARS restructured its research programs 
into 22 national programs that link the purposes to the 
agency's objectives.
    The 1998 research title made it clear, that Congress 
expected rigorous peer review of federally funded research for 
both relevance and merit. It also directed that research 
priorities should be established with input from our customers, 
our stakeholders and our partners.
    In response to the latter, ARS held more than 40 national 
program workshops at different locations across the country. 
These workshops for the first time really brought ARS 
scientists and our national program staffers together with our 
customers. Over 3,000 of our customers attended these 
workshops, including hundreds of growers and ranchers.
    During the workshops, our customers discussed their needs 
and problems with our scientists. Our researchers found meeting 
producers and consumers face to face especially helpful and 
quite gratifying.
    In addition to producers and consumers, representatives 
from all of our customer groups attended the workshops. These 
included Federal and State partners, industry groups and 
businesses, non-governmental organizations, a group that we 
have had very little contacts with in the past, and university 
researchers.
    We also made a special effort to invite small and 
disadvantaged producers to these gatherings to be sure that we 
attended to their needs. We are really quite proud of these 
workshops. For the first time we have a major influx of 
information from the outside into our program priority setting 
process.
    In addition to integrating stakeholder input into our 
priority setting to insure program relevance, the 1998 Research 
Title directed ARS to peer review each of our research projects 
at least once every five years. These reviews are conducted by 
independent and objective expert panels that base their reviews 
on scientific merit criteria.
    In response to this requirement, ARS established the Office 
of Scientific Quality Review in 1999 to review each research 
program systmatically. The Office is headed by a senior 
scientist called the Scientific Officer, who selects the panel 
chairs from outside ARS. There are six panel members on each 
panel. Each panel reviews approximately 20 projects. The panel 
chair selects the panelists and resolves matters relating to 
conflicts of interest, diversity and expertise through the 
Scientific Officer.
    The peer reviewers are, as they should be, technical 
experts and good scientists with relevant knowledge and 
experience in the research that they are reviewing. The peer 
reviewers may be ARS scientists or non-ARS scientists, but the 
majority of the reviewers on each panel must be non-ARS 
scientists.
    To date, we have held panel review sessions for four of our 
22 national programs, but this is an ongoing process that will 
repeat every five years for each research project.
    Since our time is limited, Mr. Chairman, I would like to 
now address several urgent issues that loom on the horizon. 
First is that of our research programs developing biofuels. The 
recent energy crisis in California has clearly demonstrated the 
nation's need for alternative energy sources.
    ARS research into biofuels is aimed at developing knowledge 
and technologies to increase the use of agricultural crops and 
by-products. Our success could reduce America's dependence on 
foreign petroleum and reduce the net production of greenhouse 
gases, as well as create economic opportunities in rural 
America.
    ARS conducts alternative energy research at four locations, 
in Illinois, Pennsylvania, Texas and California. We are 
developing methods to enable the more efficient production of 
ethanol using agricultural and forestry wastes, grain crops and 
fast-growing crops that might be grown solely for their energy 
production.
    ARS research is also exploring the development of biodiesel 
from vegetable and animal fats and we are developing energy 
alternatives for use on the farm that involve a combination of 
wind, solar and biofuels.
    To aid in our research efforts with biofuels, the research 
title offered $1.5 million for construction and design of a 
corn-to-ethanol pilot plant to be built in Edwardsville, 
Illinois. ARS is at the moment overseeing a $14 million 
extramural grant to Southern Illinois University for that pilot 
plant construction.
    A second urgent issue we face regards a key mission of the 
ARS, ensuring a safe food supply. In recent months, to many 
americans having a safe food supply has come to mean preventing 
Bovine Spongiform Encephalopathy (BSE), also known as Mad Cow 
Disease, and Foot and Mouth Disease from entering the United 
States.
    Of course, there are many other aspects in which we have 
significant program elements, but these are the ones that are 
in the news. We are fully engaged in efforts to keep these 
diseases out of the country. Although we have not conducted 
research with BSE directly, these are not new issues for ARS. 
We have extensive research experience and ongoing research 
programs both in Foot and Mouth Disease and Transmissible 
Spongiform Encephalopathies, known as TSE, including Chronic 
wasting disease and scrapie.
    Current research on TSEs includes a diagnostic research 
program in conjunction with the Animal and Plant Health 
Inspection Service (APHIS) academia, and the animal industry 
aimed at developing new live animal and post-slaughter tests. 
These are major barriers to understanding this disease.
    The test we are developing at the moment will detect 
scrapie, which affects sheep, and Chronic Wasting Disease found 
in deer and elk. Both diseases are found here in the U.S. 
Chronic Wasting Disease affects a significant number of our 
wildlife. So far it has not apparently transferred to domestic 
species.
    We also conduct research into how these TSE diseases are 
transmitted, to better understand the fundamental aspects of 
Mad Cow Disease ultimately.
    ARS also recently held a two-day special conference of 
experts on BSE research needs. Frankly, this was a result of 
the recent National Cattlemen and Beef Association meetings at 
which BSE or Mad Cow Disease was listed as the top priority.
    As a result, we are prepared to initiate a research program 
that will address the detection of ruminant proteins in animal 
feeds, believed to be the source of BSE.
    Foot and Mouth Disease poses a more immediate threat 
because it is one of the most contagious diseases of livestock 
known. ARS has an ongoing research program into many of the 
complexities dealing with Foot and Mouth Disease. Because it is 
so contagious, all of this work is conducted in high-level bio-
containment laboratories at the Plum Island Animal Disease 
Center in New York.
    During the past year, ARS scientists have completed 
important research concerning how FMD is spread and we are 
currently testing vaccines which induce protection against 
several of the Foot and Mouth Disease virus types. 
Incidentally, there are seven major types of Foot and Mouth 
Disease virus and about 70 or so bio-types. This is a reason 
why it is difficult to get cross-protection, for instance, from 
vaccines.
    These vaccine candidates will allow positive 
differentiation of vaccinated animals from naturally infected 
animals, an extremely important distinction if you want to have 
a vaccination program.
    We are also working on very rapid diagnostic tests, as well 
as test to differentiate animals vaccinated with existing 
vaccines from naturally infected animals. The validation and 
adoption of these tests in the field by APHIS and the 
international laboratories will have an impact on FMD control, 
hopefully in time to save the devastation that we see in 
Europe, but certainly, we hope, in time to save any problems 
that we may have here.
    This concludes my testimony, Mr. Chairman. I will be happy 
to answer any questions that you or any other members of the 
committee may have regarding ARS' research and implementation 
of our new responsibilities as directed by the recent 
legislation. Thank you.
    [The prepared statement of Mr. Horn can be found in the 
appendix on page 61.]
    The Chairman. Well, thank you very much, Dr. Horn.
    I would like to begin by saying that I am deeply 
interested, as all of us are, in American foreign policy and 
security policy, in addition to agricultural policy. We have 
come to a juncture and the last part of your testimony really 
shows the intersection of the two. First of all, with the bio-
fuels research, our pace here I would not characterize as 
leisurely. But on the other hand, for at least 20 years and 
before that, there have been thoughts that somehow we might be 
at risk as a nation in terms of our fuel supplies and our 
energy supplies. It would be a good idea if we took a stronger 
look at renewable resources, namely, things that grow every 
year and that are available to us.
    Back in President Carter's administration, we had numerous 
hearings then, in the Agriculture Committee and the Foreign 
Relations Committee, trying to see if we could establish more 
independence. This has waxed and waned as times have gone on. 
Sometimes we have become less urgent about the situation. Even 
now, many Americans are not really aware of how critical a 
problem we may have, although increasingly they are becoming 
aware as crisis occur in our power grids or natural things 
transmission or debates over general supplies.
    Having said that, it has always struck me as curious why 
the Nation as a whole did not see more urgency in establishing 
bio-fuels, leaving aside what the base would be. Those of us 
who are involved in corn farming have always fostered ethanol 
from corn. That has proceeded. But ethanol could come, as we 
have heard around this table, from all sorts of bio-fuel 
sources, as a matter of fact.
    Testimony by Jim Woolsey, former Director of the CIA, has 
suggested that there are very promising sources in switch 
grasses and sugar canes and even bark on trees. A good number 
that might finally get us to a cost point that is equivalent or 
better than that of petroleum based source.
    That, it seems to me, is a critical element because, 
essentially, our bio-fuels policy in the country depends 
heavily on a subsidiary or a payment or however one must 
characterize the difference in the cost of ethanol and gasoline 
that comes from a petroleum base.
    It is just that simple, but that critical, that we have not 
narrowed that gap. I was intrigued that you mentioned that $14 
million is going into another pilot project out in Illinois 
which I gather is state-of-the-art and will narrow the gap 
substantially. Some cynically pointed out last year in 
testimony that given the rise in gasoline price, they may 
overtake whatever is happening with regard to corn-based 
ethanol and the market may solve our problem. But I am not that 
optimistic about it.
    What is your general sizing up, either one of you, as to 
the urgency or in fact some say pessimistically, that we in 
agriculture are always looking for the rainbow out there, some 
type of bio-fuel that really does measure up economically to a 
natural gas or to a petroleum, or what have you. It simply 
isn't there. In other words, they would say, you really have to 
recognize that it just is not there and all of these efforts, 
interesting as they are, are fated to finally end in a waste of 
time and money.
    Is that to be our fate or can you give us some prognosis of 
this?
    Ms. Hefferan. Well, I think the likelihood of a solution to 
the fuel problems for agriculture is not so much a scientific 
question. It is an economic one. The science has support 
through a number of the projects that we support and suggests 
that there are many alternative ways to develop fuel through 
agricultural products.
    Last year in the New Initiative for Future Agriculture and 
Food Systems we supported four separate projects that focused 
on bio-fuels as part of a broader program in bio-based 
products. That is in addition to the work that was supported 
through the National Research Initiative and some special focus 
programs.
    There are a variety of different mechanisms, which are 
microbial in nature, looking at how microbes can change the 
fuel content of various agricultural products to looking at how 
we can overcome problems like lignin in the conversion of plant 
material to ethanol fuel.
    So, I think the question of investment is one that we have 
addressed through the programs established primarily in the 
1998 bill. It is an area where we are asking for new work in 
anticipation of growing demand as the economics of fuel 
changes.
    The Chairman. But you believe the science is there. You 
don't have the money to do the things you want. How do you make 
this transfer, promising as this may be, to somebody's actual 
plant where they begin to turn out something that might be 
bought by a consumer somewhere? Where does the transition come 
and how do we get to that point?
    Ms. Hefferan. I can give you a partial answer to that and I 
am sure Dr. Horn has much more to say on it as well. You know, 
we support activities such as the Small Business Innovation 
Research Grant Program, which really looks at commercializing 
the benefits of agricultural science, wherever it may have come 
from.
    Within the last several years, that program also has 
supported demonstrations and models that look at fermentation, 
and that look at new mechanisms for enhancing the fuel content 
of biological products.
    So, I think it is going to take a very deliberate effort 
and a continuous ramping up of our research, but I think so 
long as we have the knowledge base on the shelf that we can 
draw down as the economics becomes more favorable to bio-fuels, 
there are scientific solutions that can address this problem.
    Mr. Horn. I would agree with this. The areas of research 
needed, fall into two categories: improving the efficiencies of 
converting agricultural materials into both ethanol and bio-
diesel and developing high value industrial feed stocks and co-
products from by-product streams.
    We have major programs in this area at the National Center 
for Agricultural Utilization Research in Peoria. We also have 
work at the Eastern Regional Research Center in Philadelphia 
and the Western Research Center in Albany, California. Much of 
this is on fermentation chemistry, and fermentation systems 
that can be used to convert agricultural commodities, primarily 
corn, into ethanol.
    We also are working, with corn residues trying to convert 
those into non-food biomaterials. We are also looking for ways 
to convert vegetable oils, such as soybean oil into bio-diesel.
    At the Eastern Regional Research Center we have a number of 
different approaches to the production of ethanol, but one of 
the more interesting with regard to bio-diesel is the enzymatic 
process for converting animal fats and vegetable oils and 
already used restaurant greases into bio-diesel fuels.
    At the Western Regional Research Center in Albany, 
California, we are looking into grain fractionation 
fermentation systems that could produce not only ethanol, but 
very high value co-products.
    I do think it is a matter of economics at the moment. We 
have been told a number of times by economists that there are 
places in the country in close proximity to the source, where 
we could develop a profitable industry, but by and large it 
will always relate to the cost of available fossil fuels.
    The Chairman. Let me ask, Dr. Horn, for you to work with 
our staff, if I may. I would like to know what is going on in 
each of those sites that you have named.
    Mr. Horn. Very good. We also have auxiliary projects in 
about a dozen other locations for a total of $13.2 million in 
this program.
    The Chairman. Great. Just one further point: On the second 
large issue that intersects foreign policy and agriculture, the 
BSE and the Foot and Mouth Disease situation.
    During December I visited an agricultural laboratory, as it 
was so described in Russia, about 100 miles from Moscow. It was 
a very obscure place and rather rundown at this point. But it 
was interesting because they had bunkers that were supposed to 
protect whatever was happening there from nuclear attack from 
the United States in the past.
    They had various supplies inside the bunker. Now, the gist 
of what they were about, the Director who had been there 40 
years said, was to protect the herds of the former Soviet Union 
against a terrorist attack by the United States in which we 
would use Hoof and Mouth Disease and/or at least 13 other 
diseases that they identified to destroy the entirety of their 
livestock.
    So, as a result, they claimed that they were building 
antidotes to this, various vaccines. As a matter of fact, in 
the past they did produce a lot of vaccine for cattle herds and 
have distributed this in various parts of Russia.
    Interesting enough, they also brought in from Africa 
strains that were not native to Russia or Europe. When I 
queried why they were interested in those situations, they 
said, ``Well, they thought the United States might discover 
those, too, and they wanted to work out some toxins in case we 
were that original about it.''
    The flip side of the coin, having seen these 14 vials of 
material which was kept in refrigeration there in this 
dilapidated structure, these were the crown jewels of the 
laboratory. It could go either way. Toward the building of 
anti-toxins or toward the use of something that would be an 
aggressive weapon of mass destruction.
    Their claim, routinely, is that they were never involved in 
that, and perhaps it is so. But in any event, I mention this 
because others have been at work and have thought through the 
predicament, not of an accidental case of Hoof and Mouth 
Disease, but of a deliberate attempt.
    This is inconceivable to most of us and we really don't 
want to think about it. But we are thinking about it because 
now at risk are the herds in this country. We are diligent at 
USDA, as you are every day, in beefing up at least the 
inspections and trying to think through, really, how do we stop 
it so there is not this epidemic and this plague that could 
visit us and change life in America very substantially.
    So, I applaud you on the work that you are doing. Once 
again, those of us who are enthusiastic about research always 
ask, ``Is it enough?''
    Is it a question of research now or enforcement, rigorous 
exclusion or how would you characterize what you are up to?
    Mr. Horn. Mr. Chairman, it sounds like you have been to 
Vladimir and perhaps to Oblensk. We have been following in some 
of the same footsteps and we are very, very concerned about 
biological weapons the former Soviet Union had.
    The Chairman. In fact, I found an ARS man in Russia.
    Mr. Horn. Yes, we sent him over there to see you.
    The Chairman. Yes.
    Mr. Horn. The ARS scientist was Dr. Rick Bennett. It was an 
opportune encounter. But frankly, we have been very, very 
worried about this for a good long time. In fact, almost every 
country that has had an offensive bio-weapons program has had 
an agricultural component to that program. The most serious was 
the Soviet Union where, if we are to believe the testimony that 
has been presented before the Congress by defectors, that of 
33,000 bio-weaponeers in the former Soviet Union, 10,000 were 
working on agricultural issues.
    Just to compare that, the total work force in ARS is about 
7,500 now and we have 2,000 scientists. So, it was a huge 
program and we don't know where all of it is, obviously. Foot 
and Mouth Disease was weaponized and a number of others, may 
have been Rift Valley Fever, Tularemia and others. Some were 
zoonotic and some just against animals.
    There are really four categories that we are worried about. 
One is animal diseases. One is crop diseases. Another is 
zoonotic diseases of animals that can transmit, to humans. The 
last is technological surprise. With new biotechnological 
sciences at their disposal, those interested in biological 
weapons can change pathogens to either get around vaccines or 
to make them more virulent than they would ordinarily be.
    So, this is a huge issue. Zoonotic and ``new'' diseases 
that we would not normally see in this country like Glanders 
and Rift Valley Fever pose a totally new mission for the 
Department of Agriculture.
    We have, as you say, been working diligently on things like 
Foot and Mouth Disease, Brucellosis, and Bluetongue. But there 
is another whole set of pathogens that our veterinarians would 
be ill prepared to encounter that have been prepared for use 
against us.
    The Chairman. Well, this committee is eager to work with 
you in trying to inform the American people of the good work 
you are doing. I think this is one of these situations of 
extraordinary work because it was not topical. It has been 
unseen.
    But the basis of our work, as you know, and your work every 
year is to provide an ongoing funding of research which is 
absolutely vital. Whether people have topical interests or not, 
these emergencies occur and we have to be ready.
    Mr. Horn. We appreciate your support very much in this 
regard. In fact, I know you are responsible for much of the 
State Department activity that allows us to talk to these 
people and direct their activities in more peaceful ways. They 
are in fact, in cases that I can think of, assisting us in 
developing prophylactics against some of the diseases they 
created right now.
    The Chairman. That should be mentioned. I have mentioned 
the sad side of it. That is potential terror, but the fact is 
that the cooperation now is extensive because of the fear of 
Russians that they themselves may make a batch of it and kill 
their livestock or injure their people. So, it is an urgent 
situation.
    Mr. Horn. We are very enthusiastic about the potential to 
work with these former biological weaponeers.
    The Chairman. Thank you.
    Senator Harkin. Thank you, Mr. Chairman. I will just ask 
that my statement be made a part of the record.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. I am sorry I was a little late, but this is 
a great segue into my questioning for Dr. Horn.
    We have a National Animal Disease Center and a National 
Veterinary Biologics Lab at Ames. It has been there for over 40 
years now, almost 50, I think. I visited it a number of times. 
I had the former Secretary of Agriculture, Glickman, out there 
to look at it.
    I am going to hope to get Secretary Veneman out to take a 
look at it also. In fact, I was just there last Friday. They 
were bringing a number of sheep from Vermont that had TSE to 
dispose of them. This made quite a bit of national news. Of 
course, it made a lot of news in Iowa, too. A lot of people are 
concerned about this.
    The National Animal Disease Center at Ames, after 40 some 
years, needs to be upgraded, not only just for the present 
kinds of diseases, but all the things that you just talked 
about with the Chairman. We don't know what is coming down the 
pike. We know that some of these diseases are mutating. They 
are becoming stronger. They are becoming more virulent. They 
are manifesting themselves in different ways.
    Then there is the whole issue of bio-terrorism that we have 
to be concerned about. A lot of this falls in the lap of the 
National Animal Disease Center and the National Veterinary 
Biologics Lab at Ames. They are so spread out now that they are 
actually doing some of this work in a shopping center. Quite 
frankly, I am concerned about that.
    We are doing some stuff with toxins and things that are not 
in really secure areas. That has to be addressed. I am 
concerned that something might happen. The ARS proposed a plan 
calling for integrating and modernizing these disease 
facilities in Ames with the requirement that a study be 
completed by March first. The current facilities are grossly 
inadequate.
    Mr. Horn. Yes.
    Senator Harkin. They need to be upgraded for the new 
century ahead. As I said, some of them are in a strip mall. 
Instead of shopping center, I should have said ``strip mall.''
    I think the stories about animal diseases and the fact that 
we had to transport sheep there to be disposed of just shows 
that we are not out of the woods on this.
    In looking at what is happening in Europe, I am told that 
they are losing something like $200 million a day in Europe. I 
think in Great Britain it has already cost them in the billions 
of dollars.
    So, again, I guess I am just laying the ground for asking 
you what is the current status of the mandated report and when 
can we expect to see it? I would like to have any of your 
comments on the need to upgrade those facilities.
    Mr. Horn. Senator Harkin, before you came the Chairman made 
some opening comments that included some discussion of the 
proposals that are around to double the investment in 
agricultural research. It is absolutely true that we have 
under-invested in agriculture research for some time.
    It is particularly apparent with regard to the condition of 
some of our animal health facilities. This is the principal 
jewel in the crown with regard to domestic threats against 
American livestock and agriculture.
    All of the things that you have said are very true. We have 
Nipah and Hanta viruses. We have things that are mutating 
naturally that threaten our country's huge agricultural 
enterprise.
    We must respond by repairing those facilities. The 
Department of Agriculture is not seen as a ``big science'' 
agency. We have less than two percent of the Federal research 
and development budget. This issue must be dealt with.
    I agree with you wholeheartedly. It is urgent.
    We also have a sizable project there at Ames. We in ARS are 
in 84 different buildings on that site and APHIS is in another 
25 buildings. A few years ago, the preliminary estimates for 
upgrading the facilities which, in a significant part, meant 
replacing buildings, was upwards of $400 million, a huge number 
in agriculture.
    The report that you make reference to has gone through a 
couple of iterations and recently more reiterations to be sure 
that it is conservative, yet compelling. It is a very large 
project for us and we want to make sure that we get it right.
    We started out in 1992 proposing separate facilities to 
house APHIS and ARS. More recently, we took the approach that 
these could be combined and coordinated in a way that would 
save the Federal government a considerable amount of money.
    I hope that is the case. The report is pending. We expect 
the report to go to the Secretary for the beginning of the 
departmental clearance process within a week or 10 days. Our 
guess is that shortly thereafter, it will be presented to the 
Congress.
    The master plan that is coming out of the combined efforts 
of APHIS and ARS will be completed in June 2001 or a lot of us 
will be asking why it isn't.
    It is an extremely important project for us and I can 
assure you we are working with due diligence to make sure that 
this is an effective proposal, because we know in these 
economic times it is going to be difficult to get this kind of 
an investment. It is not the only one we have like it.
    We also have the exotic animal disease issues that we deal 
with at Plum Island. That is another huge project. But you are 
absolutely correct. It is urgent and it has to be dealt with.
    Senator Harkin. Well, we have to get on with it because we 
have got to start laying the groundwork for the rebuilding, 
consolidation, and putting up a little bit more secure 
parameters than what we have had in the past. We must get that 
stuff out of the strip mall and back into an area where it can 
be controlled more tightly than it has been in the past.
    So, I look forward to the report and I urge you, with as 
much rapidity as you can, to get it to us so we can see what we 
are going to do here on this committee and on the 
Appropriations Committee to get this facility upgraded.
    I just want to note for the record that the testimony of 
Jay Lemmermen, who will be up next, on behalf of the Animal 
Agricultural Coalition, spoke specifically about the need for 
this. He said that the existing facilities were ``antiquated, 
inefficient, and seriously undermine USDA's role as a world 
leader in animal health and diagnostics.''
    He says, ``For example, the United States currently does 
not meet the standards that we require of our trading partners, 
leading us to rely on foreign laboratories and foreign 
diagnostic procedures.''
    I just wanted to note that for the record. That is why it 
is so important to get moving on this.
    Mr. Horn. We also have certain standards to meet with 
regard to the certification of our animal handling facilities 
and our veterinary laboratories. That is at risk as well.
    Senator Harkin. Exactly. Thank you very much, Doctor.
    [The prepared statement of Senator Harkin can be found in 
the appendix on page 52.]
    The Chairman. Thank you very much, Senator Harkin.
    Senator Hutchinson.

 STATEMENT OF HON. TIM HUTCHINSON, A U.S. SENATOR FROM ARKANSAS

    Senator Hutchinson. Thank you, Mr. Chairman. Dr. Horn, it 
is good to see you again. For my own benefit, and I came in 
late and I apologize for that. If you have addressed this, then 
forgive me for asking it again.
    But on the Foot and Mouth Disease and our national effort 
to prevent the spread of Foot and Mouth Disease to the United 
States, can you just give me an overview of how many agencies 
are involved in that effort, who is coordinating that effort? 
What is the role of ARS and the USDA and how great is the 
threat to United States livestock?
    Mr. Horn. Well, I will do my best. This is a fairly 
complicated affair. Certainly, every country that we trade 
with, and interact with and have significant amounts of 
traveler exchange with, is trying to contain this disease. So, 
I would say that our partnerships with Europe including Great 
Britain, for instance, are very important deterrents to the 
movement of Foot and Mouth Disease to this country.
    The companies that actually transport people back and forth 
are sensitive to this and there are a great many steps being 
taken by partners. But within the Department of Agriculture, 
clearly the key is with APHIS. APHIS is both coordinating and 
providing the action and regulatory responses to Foot and Mouth 
Disease surveillance.
    The ports of entry are the points of focus. We are trying 
to identify and confiscate contraband materials, livestock 
materials, livestock, and livestock products that are capable 
of carrying the virus. We are trying to educate people as they 
come to our ports of entry that if they have been on a farm 
they need to tell us about it and we need to exercise the 
appropriate disinfection precautions to keep them from bringing 
the disease to the United States.
    We are also doing what we can to help those afflicted with 
this problem by providing scientific expertise. This is where 
we begin to come to ARS. ARS is a crosscutting research agency 
whose primary function in the department is to provide science 
and technology to the action and regulatory agencies, including 
APHIS.
    So, we would be developing the new diagnostic kits that can 
be used by APHIS in their effort to keep the disease out of the 
United States. We are field testing a kit right now that can 
determine a positive or negative Foot and Mouth Disease sample 
in 40 minutes or so, as opposed to the current 40 hours. It is 
also much more sensitive than the existing tests. That is 
important because in Europe the disease primarily being spread 
by sheep. Sheep don't show the symptoms that you see in cattle 
or swine.
    So, oftentimes you can move apparently normal and healthy 
sheep and yet they are diseased. So, we are helping with 
science and technology there as well. We will probably be 
working also with the French.
    Second, we would focus on the potential for the use of 
vaccines in ways that haven't been possible in the past and 
other technologies that might be used to understand the spread 
of the disease and help contain it.
    Of course, there is a big issue of carcass disposal that is 
researchable now. It is a tremendous environmental issue. What 
is poorly understood at the moment, but rapidly coming to the 
forefront, is that the big losers in this are not just 
agriculture, but virtually every aspect of life in the U.K. has 
been affected. Tourism is down 85 percent. There are major 
losses to the country's economy because of Foot and Mouth 
Disease.
    Senator Hutchinson. So, do you feel that the coordination 
in the United States is adequate and that our response has been 
well coordinated?
    Mr. Horn. Well, unfortunately, that is the kind of question 
you can only answer with assurance in retrospect. The way it is 
is as good as it can be. I think virtually every veterinarian 
in the United States, livestock veterinarian, is sensitized to 
the need to be careful and watchful.
    APHIS has been operating for some time now on an emergency 
basis, communicating with Europe and Great Britain and 
Argentina and other countries where Foot and Mouth Disease is 
being found.
    Senator Hutchinson. If I could quickly move to another 
subject, the Chairman spoke about ethanol in our bio-fuels. I 
am very interested in the bio-diesel that you made reference to 
and its feasibility in the future.
    We have a soy oil glut in the United States. I have worked 
with the Soybean Association on possible legislation that would 
do something like we currently do with ethanol. But you said 
that the future of these bio-fuels is really dependent upon the 
cost of energy out there. I think that is a fair reflection of 
what you said.
    Do you feel that some kind of incentive program on bio-
diesel could play a role as our ethanol legislation?
    Mr. Horn. I don't know much about incentive programs. In 
agricultural research we tend to focus on making the technology 
available. It is clear from what we are hearing from the 
Economic Research Service that there are many parts of the 
Nation where it is close to competitive as an energy source, 
but it is not there.
    I think as was the case with the Farm bill in the first 
place, that increased research was supposed to be a part of the 
safety net. If it is that kind of incentive that you are 
talking about, I believe that additional research will make it 
a more efficient and competitive fuel.
    Senator Hutchinson. Thank you. One last point, in the 
budget blueprint that was presented, the administration says 
that in 2001 USDA funded approximately 300 Congressionally 
earmarked projects for research, education, extension grants to 
land grant universities not subject to merit based selection 
processes and therefore do not represent the effective use or 
limit Federal funding and that the budget proposes to eliminate 
funding for these earmarked projects, saving taxpayers about 
$150 million.
    On the surface, that sounds very logical. But I am 
concerned that we may have made a sizable investment in a lot 
of these land grant universities and programs through the 
earmark and that to make an across-the-board elimination of 
those may in fact not be in the national interest or the public 
interest.
    If you would comment on that, and is there any way that 
those kinds of earmarks could be subjected to a meritorious 
evaluation and assessment of how much value they are without a 
simple kind of meat-axe approach on eliminating all the 
earmarked funding.
    Mr. Horn. Thank you for asking me that question, Senator 
Hutchinson. This aspect of the administration's budget, of 
course, will come forward in much more detail in April. It may 
be easier to determine exactly what process was used at that 
time.
    But I would say this much: In prior year budgets, the 
process has been almost identical. Those items that have not 
appeared in President's budget have been slated for 
redirection. That process has led to debate with the Congress. 
In recent years, certainly most of those have been restored.
    I think that is because of the sense of the Congress that 
there is value in many of these projects. I believe our 
responsibility at the agency level is to be sure that should 
the funds be forthcoming from whatever source, that they are 
used properly. I did speak earlier about the merit and 
relevance reviews that we go through to make sure that that 
happens.
    So, regardless of the outcome of this particular aspect of 
the budget blueprint and what follows, I think that we will do 
our very best to assure that the money is well spent, should it 
be forthcoming.
    Senator Hutchinson. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Allard. Thank you, Mr. Chairman.
    Just to bring the panel up to date on my background, I am a 
veterinarian, so obviously, I am interested in what research 
you are doing right now. Is Plum Island under your 
jurisdiction?
    Mr. Horn. Yes, the research that goes on at Plum Island is.
    Senator Allard. The researchable problems that are out 
there?
    Mr. Horn. Yes.
    Senator Allard. That is what I am interested in, the 
research side of it. What is it that you are doing specifically 
on Foot and Mouth Disease research in relation to the vaccine? 
I have had a State veterinarian contact me about his thoughts 
about a vaccination program. I know that it is controversial 
and I kind of want to know just what it is.
    He felt perhaps more research needed to be done in that 
area. I would kind of like to have your comments on that.
    Mr. Horn. There are clearly researchable problems 
associated with vaccination programs and policy. Of course, 
there have been several problems over the years. First of all, 
because it wasn't possible to regulate the vaccine production 
industry to the level necessary, occasionally there were 
batches of vaccine prepared, so-called killed virus vaccines in 
which not all virus particles were ``killed''. Therefore, you 
could get an outbreak actually caused by vaccination, which is 
unacceptable in a disease that is as contagious as Foot and 
Mouth Disease.
    Senator Allard. Exactly.
    Mr. Horn. Second, the purposes of international trade, 
there have been tremendous barriers to the export and import of 
food from livestock or livestock themselves if a country had 
Foot and Mouth Disease and you couldn't tell the difference 
between a vaccinated animal and an exposed animal. That has 
changed. We have developed technology now where one can, in 
fact, tell the difference between the two. We did that at Plum 
Island.
    Third, we are taking new approaches to vaccination and 
vaccine development. There are two promising candidates, but 
unfortunately neither is on the shelf today. One is a peptide 
vaccine and the other is made of genes taken out of the Foot 
and Mouth Disease virus and put into a human adeno virus.
    Once these go through the proper clearances, they may be 
the answer because they are not the full Foot and Mouth Disease 
virus.
    Senator Allard. There is just enough shared anti-genicity 
there that cross over?
    Mr. Horn. Exactly. Our sense is that this technology is 
probably, under the best of circumstances, two to five years 
away. Excuse me. The adeno virus is the one that is probably 
two to five years away. The synthetic peptide, it may be 
possible to clear that much more quickly. We can make a 
synthetic peptide vaccine. In fact, these are in production 
right now on Long Island, and they are sold in other countries. 
Taiwan in particular. Taiwan had a big outbreak recently, and 
is consuming a tremendous amount of that synthetic peptide 
product.
    That would simply be a process of clearing the product 
here, running some animal tests to provide data, to show 
efficacy, sensitivity and specificity, and clearing the 
facility that would produce it for us. So, we are working on 
that as well.
    Then the other aspect of work that I think is extremely 
important is rapid diagnostics. As you may know, if you have 
followed this issue, it took three weeks for the British to 
realize that they had this disease. Great Britain has a 
wonderful veterinary service. It took almost six weeks in 
Taiwan for them to know they had the disease, and they probably 
have the best vet service in Asia. Hog cholera in the 
Netherlands--six weeks, and so forth.
    So, rapid diagnostic kits are essential. We are working on 
that. We hope to field test soon in the U.K. a detection test 
that shows in 40 minutes or so whether or not the virus is 
present and it is very, very specific.
    So, we think these are going to be important parts of the 
overall strategy.
    Senator Allard. Now, help me with your background. Are you 
a veterinarian?
    Mr. Horn. No sir, I am an animal nutritionist and 
biochemist.
    Senator Allard. OK. Now, let me move on then to the other. 
What is being done on research on Spongiform Encephalopathies? 
You know, these are the kind of diseases that have lesions like 
Mad Cow Disease. The media is using Mad Cow Disease-like, which 
I think is making everybody think that all these species of 
animals get Mad Cow Disease. But these are all Spongiform 
Encephalopathies. What kind of research are you doing on that?
    Mr. Horn. It is clearly misunderstood. We have two in 
particular that we are concerned about in this country, Chronic 
Wasting Disease in deer and elk and Scrapie in sheep. We are 
doing work on these diseases at the National Animal Disease 
Center in Ames, Iowa and in our Blood-borne Disease Program at 
Pullman, Washington.
    We are working primarily on two aspects of that problem. 
One is trying to find diagnostic tools that can be used in live 
animals. That is not easy, but we have developed an inner 
eyelid test for Scrapie with sheep that appears to work. One 
normally goes after lymphatic tissue to test for the prion that 
is presumed to cause these diseases. The inner eyelid test is 
quite good with regard to identifying the presence or absence 
of the prion.
    We are also looking for this in blood. There is some 
promise to this approach, although it is still very much at an 
experimental level in blood.
    There is no BSE in America. I think it is very important to 
say that. That includes in our research program. We have not 
worked on Mad Cow Disease in the United States because it is 
important to be able to say we don't have it here.
    What we have decided to do, because of the urgency of this 
and the spread of it in Europe, is to start a new Mad Cow 
Disease or BSE research program. We are going to do it at the 
outset in two ways with the full support of the livestock 
industry. One is to add our talent and expertise to the efforts 
underway in other countries that have it.
    We would presumably put American scientists in laboratories 
in Britain and perhaps in Canada. They don't have it in Canada, 
but they have studied some of the tissue samples in Canada.
    Then, disabled, dead materials could be brought to the 
United States and subjected to research programs, probably on 
Plum Island. But these would be things that were inactivated 
and not carrying the agent.
    Senator Allard. So, even on to Plum Island, you would be 
bringing in inactivated material, then. That is the plan.
    Mr. Horn. That is the plan, because the perception of 
having absolutely no BSE in the United States is so important 
to the livestock industry. BSE inactivated, of course, could be 
handled anywhere. It could be handled at Ames or whatever. But 
it is wonderful to be able to say, ``We don't have any BSE 
agent in the United States.''
    Incidentally, in terms of the international animal health 
community, Plum Island is outside the continental United 
States.
    Senator Allard. I didn't know that.
    Mr. Horn. Yes. It is a very important concept. It is the 
only place in America where we can do Foot and Mouth Disease 
work.
    Senator Allard. Because technically it is outside the 
United States.
    Mr. Horn. That is correct under the International office of 
Epizootics.
    Senator Allard. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Allard.
    Let me ask a question on behalf of Senator Stabenow, who 
had to go to another hearing. She is concerned about Bovine TB, 
an issue in Michigan. Can you give us any information as to 
your work in that area?
    Mr. Horn. Well, we are aware of this as well. Of course, it 
is a big problem in Michigan, a relatively virulent and 
antibiotic-resistant strain of tuberculosis has broken out in 
the deer population. There is a possibility of having it re-
established in the livestock population.
    Particularly it has occurred in Michigan, but there are 
other States as well. We are cooperating with the State 
University System and the Animal and Plant Health Inspection 
Service to evaluate the potential of controlling this disease 
in livestock, should it occur in livestock, and in wildlife.
    In the last five years we have actually found this new TB 
in 12 counties in the northern part of the Lower Peninsula of 
Michigan. It would appear that about five percent of the wild 
deer are identified as TB-positive. It can also be found in 
other creatures that interact with the deer, coyotes, raccoons, 
fox, bear, feral cats, bobcats and a few beef cattle. We have 
had ten beef cattle test positive and two dairy cattle herds in 
northern Michigan.
    So, turberculosis in this wildlife reservoir is extremely 
problematic for us and it threatens the modified--accredited 
status of Michigan.
    What our research is going to do, and it, too, is 
conducted, incidentally, Senator Harkin, at the National Animal 
Disease Center in Ames, is lead to more sensitive and specific 
diagnostic tools for TB and a new set of strategies that might 
be more applicable to our life.
    The Chairman. Thank you.
    Senator Harkin, do you have further questions of this 
panel?
    Senator Harkin. We thank both of you for your testimony and 
for your extensive testimony and for your extensive questions 
and answers and dialog with us. We appreciate your own 
achievements. We look forward to visiting again soon.
    Mr. Horn. Thank you very much.
    Ms. Hefferan. Thank you.
    The Chairman. The chair would like to call now a panel 
composed of:
    Mr. Jon Caspers, board member of the National Coalition for 
Food and Agricultural Research and vice president of the 
National Pork Producers Council in Swaledale, Iowa;
    Mr. Jay Lemmermen, chair of the Animal Agriculture 
Coalition and Director of Quality Assurance, Southeast Milk, 
Inc., of Ocala, Florida;
    Dr. Richard Stuckey, executive vice president, Council for 
Agricultural Science and Technology, Ames, Iowa;
    Dr. Phil Robertson, member, committee on an evaluation of 
the U.S. Department of Agriculture National Research Initiative 
Competitive Grants Program. He is from the National Research 
Council of the National Academy of Sciences and a Professor of 
Crop and Soil Sciences at Michigan State University, Hickory 
Corners, Michigan;
    Dr. Fred Kirschenmann, director of the Leopold Center for 
Sustainable Agriculture in Ames, Iowa.
    I want to call upon the distinguished Ranking Member, 
Senator Harkin, because three of this panel are in fact from 
his native State of Iowa. I suspect he wants to make a comment 
about that.
    Senator Harkin. Thank you, Mr. Chairman. I just wanted to 
welcome them. Jon Caspers is a very well known, very prominent 
pork producer. He is vice president of the National Pork 
Producers Council and has been very much involved in leading 
this new group, this Council for Agricultural Research to try 
to get the funding doubled over five years.
    Dr. Stuckey has been executive vice president for CAST, as 
we call it, in Ames, Iowa. He has a broad domestic and 
international background in agricultural research. He is a 
recognized expert in plant pathology. CAST has been an 
indispensable resource over the years to many of us on this 
committee and in this room.
    Dr. Fred Kirschenmann was recently appointed director of 
the Leopold Center for Sustainable Agriculture in Ames, Iowa. 
The Leopold Center is at the forefront of research into 
environmental and economically sound agricultural practices. 
Dr. Kirschenmann has been a leader in this movement for 
sustainable agriculture for a long time. He is a recent import 
to Iowa from the Dakotas and we are glad to have him there.
    So, thank you very much, Mr. Chairman, for having my fellow 
Iowans here.
    The Chairman. Thank you very much, Senator Harkin. I would 
like to call upon each of you to summarize your testimony in 
five minutes, if possible. All of your testimony will be made a 
part of the record in full.
    We will proceed with questions and answers after hearing 
from all five of you.
    First of all, Mr. Caspers.

STATEMENT OF JON CASPERS, BOARD MEMBER, NATIONAL COALITION FOR 
  FOOD AND AGRICULTURAL RESEARCH AND VICE PRESIDENT, NATIONAL 
            PORK PRODUCERS COUNCIL, SWALEDALE, IOWA

    Mr. Caspers. Thank you. Thank you, Mr. Chairman, for 
inviting the National Coalition for Food and Agricultural 
Research to testify at this important hearing on food and 
agriculture research.
    I am Jon Caspers, a pork producer from Iowa, a member of 
the board of directors of the National Coalition for 
Agricultural Research and Vice President of the National Pork 
Producers Council.
    Our Coalition looks forward to working with this committee 
as we seek to double Federal investments in food and 
agricultural research over the next five years.
    I need not remind this distinguished committee that the 
food and agriculture sector faces many immediate issues, and 
yes, even crises every day. Safeguarding our borders against 
the introduction of the devastating BSE and Foot and Mouth 
Diseases, low farm incomes and consumer concerns about 
biotechnology are some of the urgent issues.
    We believe the best long-term strategy for preventing these 
problems and capitalizing on the opportunities is increased 
support of food and agriculture research and education.
    To paraphrase the old adage, ``An ounce of prevention is 
worth a pound of cure.'' We believe a dollar of funds invested 
in research now will pay back $8 or more dollars in public 
benefits in the future.
    Research based on technological advances such as the 
ability to produce higher yielding crops in animals with 
improved human nutritional qualities have allowed for a more 
abundant, safe, efficient and environmentally friendly food 
supply, improved human health and well-being, and yes, longer 
lives and lower health costs.
    We want to thank the Chairman and other members of this 
committee for supporting programs and funding that have helped 
make these accomplishments possible. Yet, despite the best 
efforts of this committee, and the world-renowned success of 
U.S. food and agricultural research, Federal funding has not 
kept pace with inflation.
    In real terms we now spend less on food and agricultural 
research than we did in 1978. We believe this is statistic 
suggestion that Federal support could be as much as a quarter 
century behind.
    Today we spend only one dollar of Federal food and 
agricultural research in the USDA for each $500 consumers spend 
on food and fiber. Concern that this less than optimal 
investment in food and agricultural research will 
unintentionally restrict our nation's competitiveness, living 
standard and general economic growth and development, a new 
coalition has been formed, the National Coalition for Food and 
Agricultural Research. National CFAR is a broad-based 
stakeholder coalition of food, agriculture, nutrition, 
conservation and natural resource organizations.
    Our mission is to double Federal funding of food, 
nutrition, agricultural, natural resource and fiber research, 
extension and education programs during the next five years. 
This is to be net additional funding on a continuing basis that 
will complement, not compete with or displace the existing 
portfolio of Federal programs of research in education.
    Our ultimate goal is not budgetary but the many benefits 
that will accrue to each American that a doubling of funding 
will bring about.
    Currently, National CFAR has over 60 members broadly 
representing all phases of food and agriculture sectors. Our 
members include major national organizations such as the 
National Corn Growers Association, National Council of Farmer 
Cooperatives, American Dietetic Association, National Pork 
Producers Council, American Soybean Association, National 
Cotton Council, American Crop Protection Association, U.S. Rice 
Producers Association, Institute of Food Technologists, 
Wildlife Management Institute, American Farm Bureau, Ducks 
Unlimited and the Forest Land Owners Association.
    We want to stress the continuing need to build the capacity 
to do quality research and education including human resources, 
infrastructure support, formula funds and core programs. It is 
important to maintain a balanced portfolio of Federal research 
and education programs including competitive grants, formula 
funds and intramural programs.
    Major areas of research that have been identified by our 
members and related coalitions that are in need of additional 
funding include food security, safety, fortification, 
enrichment and allergens; nutrition and public health, 
production quantity and quality; nutrient adequacy; global 
competitiveness; and new market opportunities. Environmental 
stewardship and resource conservation and the scientific basis 
for public policies relating to the environment, plants and 
animals.
    Increasing knowledge, skills and expertise, emergency 
preparedness for emerging plant and animal diseases and bio-
terrorism; product pioneering for food, nutrition, biomaterials 
and bio-fuels; genetic resources, genetic knowledge and 
biotechnology, rural community economic vitality and education 
and outreach to producers, processors and consumers, including 
food safety, sound nutrition, conservation and management.
    In conclusion, Mr. Chairman and distinguished Members, our 
new and growing coalition of a broad-based cross-section of 
stakeholders in food and agricultural research recommends that 
Federal investments in food and agricultural research be 
doubled over the next five years.
    This would definitely benefit the American consumer in 
multiple ways. It would benefit producers and consumers of all 
commodities in all States and it would contribute to the United 
States being the best fed country with the lowest share of 
income spent on food. It would strengthen our competitiveness 
in the global marketplace while achieving the proper balance of 
human and environment needs.
    It would enable producers to produce safer and healthier 
foods and it would find new uses for agricultural products and 
enhance the protection of our national resources.
    Thank you, Mr. Chairman. This concludes my statement. I 
will be pleased to answer any questions at a time you see fit.
    The Chairman. Thank you very much, Mr. Casper.
    [The prepared statement of Mr. Caspers can be found in the 
appendix on page 70.]
    The Chairman. Mr. Lemmermen.

         STATEMENT OF JAY LEMMERMEN, CHAIR, ANIMAL AG 
         COALITION AND DIRECTOR OF QUALITY ASSURANCE, 
              SOUTHEAST MILK, INC. OCALA, FLORIDA

    Mr. Lemmermen. Thank you, Mr. Chairman.
    I am Jay Lemmermen. I am Chair of the Animal Agriculture 
Coalition and Director of Quality Assurance for Southeast Milk 
in Ocala, Florida.
    The Ag Coalition is a coalition of livestock, poultry and 
aquaculture trade associations, the veterinarian and scientific 
communities that monitors and influences animal health, 
environment, food safety, research and education issues. AAC 
appreciates the opportunity to present to you and the Senate 
Agriculture Committee our priority items for the research, 
extension, and education title of the Farm bill.
    Now in the prepared statement, the value of animal 
agriculture and the challenges facing animal agriculture and 
the importance and economic value of ag research is fully 
listed in detail. So, I would like to skip over those and just 
present the highlights of our priorities.
    One, AAC sees the critical need for increased funding for 
ARS and CSREES research. As noted in the statement, this 
research provides the tools for APHIS which needs to protect 
our animal industries from both accidental and intentional 
introduction.
    We are grateful for the 9.7 percent and 4 percent increases 
that ARS and CSREES received in fiscal year 2001. But these 
increases must be at least maintained lest they get eaten up by 
inflation and mandatory pay raises.
    NRI needs to be funded at the full amount requested by the 
administration. Last year it was decreased by 10.9 percent from 
the previous year. It was actually 29 percent less than what 
was requested by the administration.
    NRI is where the basic targeted research is done. It 
provides new diagnostics and prevention-based biologics. Right 
now, a critical need in this area is for an injectable 
euthanasia agent for Foot and Mouth Disease. Right now the 
agent they are using in the U.K. is useful only as an IV 
product requiring tight restraint of the animals which is both 
dangerous for the people who handle them and hard to do and 
time-consuming. They are getting behind just euthanizing the 
animals.
    No. 2, facilities, adequate places to safely conduct 
research on large animals and dangerous biologic agents is a 
must. Therefore, AAC strongly supports the ARS-APHIS master 
plan for $440 million to rebuild the NADC, NVSL, and CVB Labs 
in the Ames, Iowa area.
    Plum Island, New York is also in need of adequate funding, 
not just to repair and maintain, but to modernize and come into 
compliance. We need BL-4 capability there to work on large 
animals. We rely on Canada and Australia to work on the adena 
virus on swine. We can't even do it in our own country.
    Three, FAIR 2002 guidelines for animal health emergency 
management systems. The AAC members participated actively in 
the food-animal integrated research conclaves and fully support 
the concept of coordinating research priorities of ARS and 
CSREES along the FAIR 2002 guidelines.
    Members of the coalition also participated in the 
safeguarding review at APHIS and through these exercises 
recognized the need for an emergency management system for 
animal health.
    The monitoring and surveillance portion is dependent again 
upon the quality of diagnostic tools provided through ARS and 
CSREES research.
    Prevention is the key. The initial price of $500 million or 
more for these items that we have listed is a large sum of 
money. But compare that to the devastation suffered by Taiwan 
when Foot and Mouth Disease destroyed their swine industry or 
BSE and Foot and Mouth Disease in U.K. As the Chairman has 
noted, it is over $1 billion already and the damage is far from 
total.
    To restate AAC's priorities, No. 1, increase funding for 
research. We are also a member of John's coalition for doubling 
agriculture research.
    No. 2, proper facilities to do the research,
    No. 3, coordinating the planning along specific guidelines 
to get the most research for the dollar spent with an eye on 
preventing the kind of animal industry disasters we have seen 
recently around the globe.
    Speaking for the AAC, I would like to again thank you for 
the opportunity to share our thoughts with you as you prepare 
for the 2002 Farm bill.
    Thank you.
    The Chairman. Thank you very much, Mr. Lemmermen.
    [The prepared statement of Mr. Lemmermen can be found in 
the appendix on page 75.]
    The Chairman. I want to acknowledge the presence of Senator 
Conrad, who has joined us and who would like to make a comment 
about one of our witnesses. We will hear from that witness and 
then proceed back into the order.
    Senator Conrad. Thank you very much, Mr. Chairman. I thank 
the Ranking Member. Well, thank you for holding this series of 
hearings. I apologize, because of my Budget Committee 
responsibility I have not been as faithful an attendee as I 
have been in the past, but we are getting to the end of that 
process.
    Mr. Chairman, I did want a chance to introduce one of our 
witnesses here this morning, Fred Kirschenmann, who is from 
North Dakota and someone we are very proud of in North Dakota.
    Are you trying to take credit for him in Iowa? Well, that 
is what happens, you know, when you are a good person and have 
an outstanding reputation, everybody tries to take credit for 
you. But Fred lives in North Dakota.
    He is the director of the Leopold Center for Sustainable 
Agriculture in Ames, Iowa. That is where Iowa gets in on 
claiming Fred. But he also runs the Kirschenmann Farms in 
Windsor, North Dakota. That is a certified organic farm, a 
3500-acre farm that is really, I think, one of the show places 
of North Dakota.
    Fred is a national leader in the organic movement. He has 
been on many boards and commissions. I will just mention it 
would to the Members here. Fred has just completed a 5-year 
term on USDA's National Organic Standards Board and he has been 
a member of the board of the Henry Wallace Institute for 
Alternative Agriculture since 1974. In 1997, he was its 
president.
    We just couldn't have a better witness, one that carries 
more credibility than Fred Kirschenmann.
    We put on an event every year in North Dakota that we call 
``marketplace.'' It attracts about 5,000 people. Fred has been 
a participant in that, has taught classes there. It is a joy to 
see him here as a witness. Again, I want to thank the Chairman 
and Ranking Member for permitting me this opportunity.
    The Chairman. Thank you, Senator Conrad, for your testimony 
about our witness.
    Dr. Kirschenmann, would you proceed.

 STATEMENT OF FRED KIRSCHENMANN, DIRECTOR, LEOPOLD CENTER FOR 
              SUSTAINABLE AGRICULTURE, AMES, IOWA

    Dr. Kirschenmann. Thank you very much. I was deeply honored 
to be invited. Now, I feel especially honored.
    Thank you, Senator Conrad, for your kind comments. Thank 
you, Chairman Lugar. I have long been an admirer of your work 
and I am very pleased to be here this morning.
    In my adoptive State of Iowa, we recall Senator Harkin with 
deep affection, so it is especially a pleasure to be here this 
morning with all three of you here.
    As has been indicated, I am a farmer, first and foremost. I 
have taken an off-farm job to support my farming habit, as of 
November last year. So, I am now deeply involved in the 
research agenda at the Leopold Center.
    It is very gratifying to hear the comments about support 
for agriculture research because as a farmer, I recognize the 
vital importance of our ongoing research agenda.
    On the other hand, I think, again as a farmer, we have to 
simply recognize that our research has not done the job in 
terms of our farming community. The statistics simply don't 
look very promising right now.
    Over half of our farm income now comes from direct 
government payments. Costs of production exceed the market 
price for most of our commodities.
    There are now more farmers over age 65 than under age 35 in 
this country and we now have more prisoners than farmers. My 
friends ask me whether that means we have too many prisoners 
and not enough farmers and maybe it means both.
    The farmer side of that equation, of course, is inflated 
because as everyone here knows, we still count everybody as a 
farmer that produces at least $1,000 gross income.
    Our environment problems persist. In some cases they have 
gotten worse. Our rural communities are in a state of decline. 
Most States have an extremely narrow crop and income base. We 
have some serious problems facing us.
    I think one of the things which I want to urge us to do is 
to think about redirecting at least a small portion of our 
research dollars so that we can begin to change some of that 
picture which I have just described. Otherwise, we may indeed 
have an agriculture in this country without farmers.
    Our suggestion is that we really look at three interrelated 
initiatives as we think about our agriculture agenda for the 
future. Incidentally, all of these initiatives have now been 
demonstrated in terms of field experience that they are 
effective.
    The first initiative which I would like to suggest is that 
we take more seriously looking for solutions to agricultural 
problems from our natural capital, in other words, the 
ecological kinds of solutions. There is much evidence that 
indicates that these are successful approaches.
    The reason that they are beneficial for farmers is that 
farmers can begin to achieve their production goals without as 
many costly inputs. It is the costly inputs which in many 
cases, while it may increase yield, does not increase their net 
income.
    Of course, net income for the farmer is one of the crucial 
factors.
    There is a recent report, which was reported in the New 
Scientist Magazine, a study just released entitled ``Reducing 
Food Poverty with Sustainable Agriculture, a Summary of New 
Evidence.'' The report was put together by Jules Pretty and 
Rachael Hine, who are with the Center for Environment and 
Society at the University of Essex in Great Britain.
    It is interesting. They looked at 208 cases from 52 
countries where sustainable agricultural practices have been 
put in place. What they discovered was an overall 40 to 100 
percent increase in yield by using these technologies compared 
to previous technologies.
    The way they did it was by better use of natural capital, 
through introduction of new regenerative elements and through 
new and local appropriate crop varieties and animal breeds. It 
was an excellent example of this kind of research, which also 
appeared in Science Magazine last fall.
    The study actually appeared in Nature Magazine and was 
reported in Science Magazine where in China they took two 
varieties of rice that had been locally adapted and companion-
planted them. They had an 18 percent overall increase in yield 
and a dramatic reduction in inputs for diseases control because 
the varieties were adapted to those local conditions.
    So, my question is how many of those kinds of solutions are 
currently unknown to farmers because we haven't devoted very 
much of our research to those kinds of solutions.
    The second and third solutions that I won't have time to go 
into are in the marketplace. We think there are many 
opportunities in the marketplace, but as long as farmers are 
going to only produce commodities which are essentially raw 
materials, there really isn't much hope for increasing their 
income. We have to find new markets that add value to those 
commodities so that there is a greater return into the farm 
sector of agriculture.
    Then, finally, our farm policies. We think that the kind of 
research that the Sustainable Agriculture Research Education 
Program has been doing in past years, which is clearly a 
showcase of success in agricultural research in this country, 
the idea is being copied in much of our other research and 
policies that would support that kind of research more as well 
as policies that would reward farmers for doing the right 
thing.
    Certainly, Senator Harkin's legislation entitled the 
``Conservation Security Act'' is a prime example of that kind 
of research. So thank you very much.
    The Chairman. Thank you very much, Doctor.
    [The prepared statement of Dr. Kirschenmann can be found in 
the appendix on page 83.]
    The Chairman. Dr. Stuckey.

 STATEMENT OF RICHARD E. STUCKEY, EXECUTIVE VICE PRESIDENT OF 
   CAST, THE COUNCIL FOR AGRICULTURAL SCIENCE AND TECHNOLOGY

    Dr. Stuckey. I am Richard E. Stuckey, executive vice 
president of CAST, the council for Agricultural Science and 
Technology. I am pleased to testify on behalf of CAST. CAST 
represents 37 professional scientific and engineering societies 
whose individual members exceed 180,000 scientists.
    Our mission is to bring science to public policy 
decisionmaking. The members of CAST represent a broad spectrum 
of the food and agricultural sciences including rural 
sociology, animal science, plant science, plant protection 
sciences, agricultural engineering, food technology, nutrition, 
toxicology, veterinary medicine and many other related 
disciplines.
    Although CAST is comprised of the various disciplines I 
have mentioned, today I have been asked to focus on the plant 
science research needs. Others on this panel have addressed 
animal and other discipline needs.
    There are two points I would like to make. First, there is 
a need for significantly increased investment in agricultural 
research extension and education.
    Second, the earth has limited natural resources. With the 
United States budget surplus, why not invest in the science 
that has helped contribute to that surplus?
    There was genuine excitement in the academic community when 
in 1989 a new program was introduced which many of you 
supported, called the National Research Initiative. But the 
authorized $500 million never materialized beyond the 
approximately $100 million over the past 10 years.
    A healthy agricultural system provides the building blocks 
for human health. We are what we eat. Today's world is becoming 
even more complex with more issues and more challenges to face. 
Simply slicing the budget research pie into more pieces is not 
the answer. We must make the pie larger.
    The examples of funding increases at NIH and NSF over the 
past 5 to 10 years certainly come to mind. Our goal is to 
protect our environment, maintain a sustainable agriculture and 
food system, and provide an economic return for those who labor 
long hours and assume financial risks. This can be improved 
with increased research spending.
    The approach to reaching these goals is what may differ. No 
longer does one size, one approach, fit all. Choices are not 
black and white, but rather shades of gray. For some the 
approach would be highly technology driven. For others, it 
would rely more on human capital.
    I believe this diversity in approach is well illustrated in 
the CAST report released yesterday on vertical coordination of 
agriculture in farming dependent areas. More and more we find 
there is no one approach or single way. Rather there are 
multiple approaches worthy of research and educational support.
    This brings me to my second point, the earth's limited 
natural resources. We all know that the world's population 
continues to grow and is projected to add another 50 percent to 
six plus billion during the next 30 to 50 years.
    We need to conserve existing natural resources. More food 
will need to be produced with the land and water that we have 
available today. There is no more land and water to be made. 
The supply is finite.
    Our plant research priorities should have the preservation 
of natural resources a primary goal. The primary mission areas 
of the Agricultural Research Extension and Education Reform Act 
of 1998 remain priority areas today.
    More specific to plant research, the Coalition for Research 
on Plant Systems, CROPS, was organized to determine the 
societal needs and to develop a comprehensive coherent natural 
research strategy. Recommendations from the CROPS 1999 Forum 
were endorsed by more than 75 organizations.
    The three research priorities identified were the 
following: One, expand the science and application of plant 
genomics. Two, develop practical, sustainable production 
management systems for the protection of the food and fiber 
supply of our natural resource base. Three, develop mechanisms 
to enhance producer profitability while minimizing risk of 
financial loss and ensuring food safety and security.
    Invasiveness of plant and other nonnative pests and bio-
security concerns are also becoming priority issues. More 
public research and education dollars are needed, not only for 
the development of new products, but also for the safety 
testing of these products as they come to market.
    The diminished role of the public-funded agricultural 
research has shifted the research heavily to the private sector 
for which there has been some public distrust. I often wonder 
how the acceptance of genetic engineering may have been 
different if a majority of this research had been done with 
public rather than private funds.
    In conclusion, there is a need for greatly increasing the 
Federal agriculture and research budgets. The need greatly 
outweighs our ability to select and choose the areas for where 
this research should be conducted. There are simply too many 
choices for a stable or declining budget to address.
    The world today is more complex than ever before. 
International travel and trade bring on new dimensions, new 
problems and new opportunities. We are responsible for the 
careful nurturing of the planet so that it benefits mankind and 
the creatures that inhabit it, while protecting the resources 
for future generations.
    Thank you for allowing me to share some thoughts and this 
testimony on behalf of the members of CAST.
    The Chairman. Thank you very much, Dr. Stuckey.
    [The prepared statement of Dr. Stuckey can be found in the 
appendix on page 91.]
    The Chairman. Dr. Robertson.

STATEMENT OF PHIL ROBERTSON, MEMBER, COMMITTEE ON AN EVALUATION 
                   OF THE U.S. DEPARTMENT OF 
           AGRICULTURE NATIONAL RESEARCH INITIATIVE 
COMPETITIVE GRANTS PROGRAM, NATIONAL RESEARCH COUNCIL/NATIONAL 
                   ACADEMY OF SCIENCES, AND 
            PROFESSOR, DEPARTMENT OF CROP AND SOIL 
         SCIENCES, MICHIGAN STATE UNIVERSITY, HICKORY 
                       CORNERS, MICHIGAN

    Mr. Robertson. Good morning, Senator Lugar and Senator 
Harkin. Thank you very much for the opportunity to speak today. 
I am Phil Robertson, Professor of Crop and Soil Sciences at the 
W. K. Kellogg Biological Station, Michigan State University.
    I serve as a member of the National Research Council's 
Committee to evaluate the USDA's National Research Initiative 
Competitive Grants Program, known as the NRI. I am here this 
morning to summarize the committee's report.
    As you know, the National Research Council is the operating 
arm of the National Academies, which includes the National 
Academy of Sciences, a private nonprofit society that was 
chartered by Congress in 1863 to advise the government on 
matters of science and technology.
    The study that I will address today was requested and 
supported by the USDA. It has undergone the usual rigorous 
independent review by volunteer experts, internal and external 
to the NRC.
    It is hardly necessary to describe to this committee the 
importance of scientific research for providing the American 
public a food and fiber supply that is safe, affordable, and 
environmental responsible.
    The fundamental success of our efforts to produce food and 
fiber at a rate sufficient to meet the needs of a fast growing 
national and global marketplace cannot be reasonably questions, 
not can the starring role of research in this success be 
underestimated.
    Agriculture is more than ever a knowledge-driven industry. 
Advances in genetics, in field crop technology, in animal 
health, in food storage and processing, in pest protection and 
forest health, advances in all stages of the production chain 
are driven largely by research findings.
    The NRI was launched in 1992 in response to an NRC report 
calling for an expanded competitive grants program to address 
emerging basic research needs in agriculture. Enabling 
legislation authorized annual spending of up to $500 million on 
a new competitive grants program.
    Annual funding has remained at or near $100 million since 
1992. Since its inception, the NRI has functioned as a pilot 
program to support high quality research related to the 
nation's food, fiber and natural resources system.
    In 1998, the NRC appointed a 14-member committee to assess 
the quality, value and other aspects of the program and to 
remember changes for the future. To carry out this change, the 
committee gathered data, conducted surveys and interviews and 
solicited testimony from industry, professional societies, farm 
organizations, universities and agricultural experiment 
stations and other Federal agencies.
    Throughout this process the committee found a great deal of 
consistency in its findings. In general, the committee found 
NRI to have financed high quality scientific work within 
Congressional guidelines. In this sense the program was judged 
to be a substantial success.
    The committee also found, however, that the program is in 
danger of languishing. The program size, the size and duration 
of individual grants and the low overhead allowance have led to 
reduced application numbers, especially from scientists outside 
the traditional food complex.
    Moreover, the committee found that traditional stakeholders 
in the NRI are losing confidence in the health and direction of 
the program.
    The committee has made 16 specific recommendations to 
bolster and revitalize the NRI. Many of the recommendations are 
structural and relatively easy to address, given administrative 
will and Congressional approval.
    I would like here to emphasize three of the most difficult 
but important recommendations made by the committee.
    First, the committee recommends that the NRI and other 
competitive USDA research programs be moved to a new extramural 
competitive research service that would report to the Under 
Secretary for Research, Education and Economics.
    Second, the committee recommends the establishment of a new 
extramural advisory board that represents NRI stakeholders and 
has a non-USDA chair.
    These two changes would place the NRI at a level equivalent 
to USDA's other main research agencies. The committee believes 
strongly that unless extramural competitive research is given 
the same organizational stature as formula-funded and 
intramural research in USDA with its own advisory board, that 
it will remain difficult for the program to achieve its 
mission.
    Third, the committee recommends that by 2005 the NRI budget 
be increased to a level equivalent to the $550 million 
recommended by the NRC in 1989, so long as recommended changes 
in priority setting, documentation, and organization are put 
into place.
    The committee believes that inadequate funding of the NRI 
has significantly limited its potential and placed the program 
at risk. A substantial increase in funding will ensure a robust 
and high quality public research effort that can significantly 
transform the nation's food, fiber and natural resources system 
in response to critical needs in agricultural productivity, 
environmental health and societal well-being.
    The committee also believes that after reaching this budget 
level that future budget growth of the NRI should be evaluated 
and compared with the budgets of complementary programs in NSF, 
NIH, and DOE.
    Allow me to conclude with a reiteration of the 
extraordinary importance of public merit-based, peer-reviewed 
research in food, fiber and natural resources.
    In the opinion of the committee, which included scientists 
and non-scientists from both industry and the public sector, 
past public research and current private activities cannot meet 
the needs that are being created by population growth, climate 
change and natural resource deterioration or the challenges 
related to food safety and nutrition and to the growing 
convergence of foods and medical research.
    To meet these needs requires a vibrant, reinvigorated NRI 
that provides consistent funding for the investor-initiated, 
curiosity-driven research that is the backbone of the U.S. 
basic research enterprise.
    Thanks again for the opportunity to speak this morning. I 
will be glad to answer any questions.
    The Chairman. Thank you very much, Dr. Robertson.
    [The prepared statement of Dr. Robertson can be found in 
the appendix on page 94.]
    The Chairman. I would pick up one comment that you made in 
the latter part of your statement about the merit-based aspect. 
This has arisen at another point in our hearing in which, as I 
recall, Dr. Horn was queried by Senator Hutchinson that as many 
as 350 projects, being done at land grant colleges or various 
other situations, were not merit-based, but, nevertheless.
    Dr. Horn, I suppose with some sense of realism, suggested 
they might very well be restored by the time we are through 
with the appropriation process.
    This is sort of a normal course for our situation. You 
offer some illumination because when we passed the 1998 act, 
the $600 million, $120 million each year, the thought was that 
this would be merit-based. There would be peer review. These 
would be something well beyond the normal funds that go to keep 
the doors open in a lot of our research efforts in colleges 
around the country.
    Our House colleagues did not see as much merit in that as 
we did. There are legitimate differences of opinion in a 
democracy. As a result, nothing of this occurred, zero, really, 
for the first year. USDA, to its credit, has tried to revive 
this idea administratively, with the Secretary of Agriculture 
intervening. Dan Glickman, last year, found a clause that gave 
him the ability to go out and award 86 grants. There were 1,000 
competitors.
    So, the political situation is in a nutshell in this 
predicament, on the one hand perennially. Gentlemen such as you 
come before us and point out the benefits of cutting edge 
research, thinking outside the box, and new ways and peer-based 
and merit-based and all the rest of it.
    But in the practical politics, as Senators look after their 
constituents and Members of the House likewise, sometimes this 
happens more or less. I would hope still that we would persist. 
I think there is value in what you have to say. Many of you 
have underlined this in various other ways.
    I want to spend my time on questions and on some comments 
that appear on Dr. Kirschenmann's testimony because he touched 
upon this briefly as he had to summarize.
    But essentially he says, and I quote, ``The brutal truth is 
that if all we expect from agriculture is that it produce 
sufficient quantities of food and fiber as efficiently as 
possible on a global scale, then we should get out of the 
farming business altogether.''
    He points out essentially, as I think almost anybody 
involved in farming would, that at least currently the return 
on investment from most farming operations in this country, and 
I presume that may be true around the world, is very low. This 
is sort of a dim secret that never quite bubbles up in these 
situations.
    Just for the sake of argument, in the Farm Bureau meetings 
around Indiana, I point out that for my own farm, in the 45 
years that I have had responsibility and by the best accounting 
that I have, has had roughly a four percent return on invested 
capital.
    Many farmers say, ``Well, that is far too high.''
    But other people looking at this who are not farmers would 
say, ``What has been going through your mind for 45 years, with 
Treasury Bonds regularly, 30 percent bonds at 6, 7, or 8 
percent? You know, we can see why you might indulge this for a 
while, but why have you persistently maintained this for 45 
years at this low rate of return?''
    Others would just simply say they want to know how we got 
the four percent. I am not really sure how that has worked out.
    This is why we start each of our Farm bill debates with a 
business which essentially is not making very much money. Then 
we proceed through the processors who come before us.
    We have a big argument about concentration, whether it is 
the stockyards or the food processors or the people who are do 
retail. Indeed they are concentrating because many of them are 
not making very much money, either.
    But the Wall Street people come and say the whole industry, 
whether you start from the producer all the way from the time 
it passes out of the supermarket, is a low return business. If 
you were to advise clients in America who have venture capital, 
which have substantial amounts of capital, this would not be 
the place that they would put it.
    So, I am intrigued by the testimony that Dr. Kirschemann is 
giving because he is saying essentially we have to not only 
market the corn, but market the farm. There are a good number 
of things that may need to happen.
    Now, many people to stay alive on farms discovered this a 
long time ago, all sorts of alternative systems of income quite 
apart from the in-town job, but they were doing things 
creatively on their farms that resulted in greater income.
    The question then, obviously, is how do you couple this 
with our reverence for the soil, for the ecology, the heritage 
we have? That is a very difficult situation, too, although not 
impossible, given the interest in conservation, not only of 
this committee, but of this country.
    Along this combination of conservation and research, not 
long go after we had testimony from the local conservation 
people as part of the hearing, Senator Harkin, I give him 
credit, wanted to concentrate on conservation early on to get 
this started and I agree with that. I think it is a very 
important thing.
    But I found that on my own farm, the local conservation 
person, now given the software that they have been able to 
produce, they have coupled together all the soil surveys and as 
a matter of fact, all the data that they have, really, from the 
State of Indiana.
    They can put overlays on a screen in front of you that show 
you what they would predict for an average year of the yield of 
corn literally acre by acre on the 604 acres that I have. They 
will show some places that I would never have thought of 
planting corn or soybeans or whatever else it is that you have 
a mind to do.
    They can show what kind of retention there will be of 
moisture in any of these soils, what are thoroughly 
inapplicable for septic tank systems if you ever should think 
about putting housing there and a whole raft of things, just 
one revelation after another. All of this is available through 
USDA, through the Conservation Service now, through 
extraordinary research efforts.
    This is a different kind of research in a way. It is a data 
collection, but it is also imaginative so that farmers such as 
myself or those who are helping me, can make better decisions 
in terms of conservation, production, maximization in terms of 
inputs or not inputs at all, if that were to be the decision, 
in ways that I could not have conceived that we would have 
these options even 15 years ago, maybe even five years ago.
    All of this strikes me as tremendously important, if the 
four percent return is ever going to be something else. If we 
are ever to have debates on the Farm bill that are something 
other than a perpetual recession and how you either revive 
those who survive or keep a few more alive.
    So, the need for research to tackle this holistic situation 
just seems to me to be imperative. That doesn't take away for a 
moment how we might make the yield of corn triple.
    People like Dr. Borlaug who I cited earlier on would say 
that is probably necessary if the world is to be fed in 2050, 
hard as it may be to distribute the corn, given all the 
political circumstances and governments that intervene and 
distribution systems even within countries. But at least 
basically, tripling of yield has been a goal in USDA and has 
been achieved, say, from the 30's until the present.
    Can it be achieved again is really a big question or should 
it be achieved? Can you stretch the wee plant that further. As 
has been suggested, we think about crops that we don't think 
about very often that are still to be discovered as 
commercially viable and valuable. That may be the more 
promising situation, but one that really stretches even beyond 
the energy debate we were having earlier, how you make that 
transition.
    So, I appreciate the work that all of you have done in your 
testimony. I have read each of the papers. They are a 
composite, really, of very good guidelines of what in public 
policy we ought to be doing.
    I just take this opportunity to sort of monologue on the 
problems that we face in total in this committee in trying to 
help the income of farmers as well as the heritage, as I say, 
conservation-wise and try to be prepared, really, for a day in 
which maybe we got the export thing straightened out in which 
the politics of world trade are more propitious.
    Dr. Kirschenmann, since I zeroed in on your paper, do you 
have any comment on this?
    Mr. Kirschenmann. Well, I think your assessment that we 
really need to start looking at these things from a holistic 
perspective is exactly on target. The reason I made the comment 
in the paper about getting out of the farming business 
altogether, of course, that is not original with me.
    Stephen Blank at the University of California suggested 
that in his book, ``The End of Agriculture and the American 
Portfolio.'' A lot of people got mad at him for that. I 
personally applauded him because I think we really need to take 
that seriously.
    You know, if all we expect of farmers is to produce raw 
materials for our food and fiber system, the brutal truth is 
that farmers in other parts of the world who have cheaper land 
prices and cheaper labor prices can do that more cheaply than 
we can. So, he is simply saying, ``Let us face that fact.''
    Now, I think the piece that he doesn't tell us about is 
that farmers really do produce a whole lot more than the raw 
materials for food and fiber. They are major players in 
protecting our environment. With the right policies and the 
right resources, they could be more important players. They 
play an important role in keeping our rural communities 
vibrant.
    So, I think that a debate which we need to have is whether 
or not the citizens of this country want simply the raw 
materials or whether they want some of the other public goods 
that farmers are in a position to provide. The answer to that 
question seems to me to be critical in terms of the future of 
agricultural policy.
    I believe and in terms of citizens that I have talked to, 
that they do want these other public goods from farmers. That 
plays in to part of the market and my comment about marketing 
the farm instead of farming the market. We have a lot of things 
to market through our farms.
    Most of the studies, the Hartman Report and others indicate 
that 30 percent of the consuming public today and that 
percentage is increasing would like to buy a food story with 
their food. They would like to know the farmer that produced 
the hogs or the corn. They would like to know the processor who 
processed it. They would like to know that there was good 
environmental stewardship. They would like to know that the 
animals were treated properly.
    They are doing a much better job of this kind of marketing 
the farm where there are computer scanners in the store and you 
can pick your package of pork chops off the shelf and run it 
through this computer scanner and it will bring up the picture 
of the family that produced the hogs, where it was processed, 
how it was handled, all the way right down to the supermarket. 
So, the story is right there.
    I think there are tremendous opportunities here, 
particularly for our mid-sized farmers which are the ones who 
are the most vulnerable now. According to the 1997 statistics, 
we have only 575,000 of those farms left. They are the ones 
that are the most vulnerable, because they are not big enough 
to get access to the major commodity markets and they are too 
big to do the direct marketing which has been the avenue that 
the smaller farmers have been taking. We have seen some 
increase in numbers now of those smaller farms.
    So, I think here is a marketing opportunity. With a little 
bit of research and the right kind of policies that sort of put 
them on a level playing field and some imaginative work at the 
Leopold Center we intend to zero in on that and see if we can't 
do a hopefully successful demonstration in Iowa of how this 
could be done and create some new markets for these farms.
    So, I think your assessment of that, looking at the whole 
system, is exactly what we need to do.
    The Chairman. Doctor, parenthetically, I have mentioned 
that on Thursday the committee will hold a hearing. This is 
only a very small part of this problem. But we are trying to 
think about the potential markets to farmers for CO2 
sequestration or no-till policies or the various items that are 
coming along, that are big concepts.
    How do you work out the markets so there can be some buyers 
and sellers? We had testimony at one conservation hearing from 
the State of Michigan that they have a website now in which 
people on the farm who are, say, doing no till or various other 
practices, are in a position to sell to industrials in Michigan 
who have some problems right now with regard to waterways.
    These credits, an actual transfer can occur. They plan to 
go on line with actual trading of this, which means income for 
the farmers who are doing the selling. This is, as I say, only 
a very small part of the forest, but it can become a much 
larger one as our negotiations continue throughout the world 
with regard to clean air and clean water.
    Senator Harkin.

    Senator Harkin. Thank you, Mr. Chairman. It has been a 
fascinating discussion. I have listened intently. I am sorry 
that I have to leave. In fact, I have to go talk to a group 
about conservation.
    I think, just picking up on what you just said, that a lot 
of times we look for the big fix and we look for something that 
has a universal application, whether it is in our commodity 
programs or whatever.
    Maybe we ought to be thinking about a lot of small fixes 
that go to make up the big fix, rather than a big fix that you 
try to impose on everyone.
    Yes, there are a lot of things out there. If you do one 
small thing, you say, well, everybody can't do that. I 
understand that but if you have a lot of different things out 
there, I think maybe that is what I think our challenge is in 
research.
    It seems to me we have a couple of components. We have the 
basic research which is just ``why.'' A lot of people ask 
``why.'' That is basic research. We have to do a lot of basic 
research and focus more on basic research.
    Then there is the directed research; how? How do you do 
these things? What is the end goal you want to seek and how do 
you get to this end goal and more of the things that you were 
just talking about there, I think, Dr. Kirschenmann?
    So, I think we have to look at both of these, both the 
basic research and some of the directed research in trying to 
accomplish certain societal goals that we may want. I am not 
certain that there has ever really been a consensus here on 
what those goals out to be.
    We all wax eloquently about the need for healthy rural 
environments, family farms, viable communities with good 
schools and hospitals and things like that. But then, it seems 
like the policies we have had in the last 30 or 40 years have 
made us go just in the opposite direction.
    Just take for example the capitalization of land values. We 
had two good hearings in Iowa this weekend, Mr. Chairman. Some 
of the testimony from Iowa State, Mr. Duffy and Neal Harrel, 
talking about how our farm programs really have elevated the 
capitalization costs of land, and we can't just pull the plug 
now.
    You have that all locked in so what do we do? How do we get 
young people who may want to do some agriculture? Maybe they 
don't want a farm, 3,000 or 4,000 acres of land. But they would 
like to do something and have a good life style and perhaps 
find a niche market that is out there that would provide them a 
good income. But there is no way they can do it with the 
capital cost of land right now.
    So, somehow, we have to try to figure out how we address 
that, too. I don't have the answer. I sure have the questions, 
but I don't have the answers to this.
    So, in other words, it was a good discussion. Dr. 
Kirschenmann, I look forward to working with you in Iowa at the 
Leopold Center on this.
    Basically, I think one of the things we have to start 
looking at, and I will just make this last pitch, we have to 
look upon conservation as a commodity. Conservation should be a 
commodity and it should be treated as something that a farmer 
produces, producing conservation. But I won't get into that.
    I just want to ask one question going back to what I said 
earlier. I was at the Ames Lab again this weekend, as I said 
earlier. I want to ask Mr. Caspers and Mr. Lemmermen of the 
various commodity and animal health groups, what is your 
position regarding the need to modernize the Ames ARS and APHIS 
facilities? Do they meet international accreditation standards 
and how do you feel about it?
    I read your testimony, Mr. Lemmermen, and you mentioned it 
specifically. I just wondered how the two of you feel about how 
fast we have to proceed on this. Mr. Caspers.
    Mr. Caspers. Thank you, Senator. Certainly I am familiar 
with that project and very aware of the need, certainly because 
it is in my backyard, literally, but also because of the 
industry and my involvement with pork production.
    That is a perfect example, I believe, of a facility that we 
need to improve the basic infrastructure for research and 
support for agricultural industry. But our coalition certainly 
cites the need to build that infrastructure around the country. 
That is one example of something that is desperately needed, I 
believe.
    Certainly in other industries there are other needs also. 
We would like to see more emphasis and more funding put toward 
building that infrastructure to support research needs for ag.
    Senator Harkin. Thank you very much, Mr. Caspers.
    Mr. Lemmermen.
    Mr. Lemmermen. Well, Senator Harkin, our policy, I don't 
know we have a direct policy, but any time we could have had it 
done before yesterday would be great. When it was first 
proposed we were looking at $380 million. Two years later we 
are $440 million. By the time it is done it may be over $1 
billion to get it done.
    So, any time we get it done prior to yesterday is great. We 
need this type of facility. It supports our Yones Programs in 
dairy. It supported the pseudo-Rabies in swine. There are a 
number of things that it does and it does well because of the 
ability to cross-disciplinary lines with APHIS and ARS being 
right there together and doing these things.
    One thing we have to remember that as we pass regulations, 
part of the thing that has hurt Plus Island and Ames is 
regulations were passed for, say, animal welfare. Where they 
used to have five animals in a pen, now you have a certain 
number of square feet, so there is only room for one animal in 
that pen.
    Well, now you have to build five times the size of the 
facility and the money is not there to do it. I mean the 
regulations came alone without the money. This has put us 
behind. As Congress looks at regulations, they need to bring 
the cart along with the horse.
    True, animal welfare is important. We need to take care of 
those animals. But we also need to take care of the industry 
and bring the money along to modernize the facilities so we can 
still do the work that needs to be done.
    Thank you, sir.
    Senator Harkin. Thank you, Dr. Lemmermen.
    The Chairman. Thank you, Senator Harkin.
    Gentlemen, we thank you very much for coming today and 
offering such important testimony. Your response has been 
appreciated. Thank you very much.
    The Chair would like to call right now a panel composed of 
Dr. David Chicoine, chair of the National Association of State 
Universities and Land Grant Colleges Board on Agriculture and 
Dean of the College of Agriculture, Consumer, and Environmental 
Sciences, University of Illinois at Urbana, Illinois.
    Dr. Bobby Phills, chair of the 1890 Legislative Committee 
and Dean and director of Land Grant Programs, College of 
Engineering Sciences, Technology and Agriculture, Florida A&M 
University in Tallahassee, Florida.
    Dr. Vic Lechtenberg, chair of the National Agricultural 
Research, Extension, Education and Economics Advisory Board and 
Dean of Agriculture, Purdue University, West Lafayette, 
Indiana.
    Gentlemen, it is a privilege to have you with our committee 
this morning. As I mentioned earlier, we will ask you to 
summarize your testimony if possible in five minutes. Your 
statements will be made a part of the record in full and we 
will proceed with questions and answers at that point.
    For those of you who are trying to gauge your time or for 
others who may be watching this on closed circuit television 
and want to come in, we will try to conclude the hearing about 
noon, when I understand a vote will occur on the Campaign 
Finance Reform Bill, an amendment being considered even as we 
speak on the floor.
    Doctor, would you please proceed.

         STATEMENT OF DAVID CHICOINE, CHAIR, NATIONAL 
ASSOCIATION OF STATE UNIVERSITIES AND LAND GRANT COLLEGES BOARD 
 ON AGRICULTURE, AND DEAN, COLLEGE OF AGRICULTURAL, CONSUMER, 
  AND ENVIRONMENTAL SCIENCES, UNIVERSITY OF ILLINOIS, URBANA, 
                            ILLINOIS

    Dr. Chicoine. Thank you, Senator Lugar. Thank you for the 
invitation to testify today. I am David Chicoine and I am Dean 
of the College of Agricultural, Consumer and Environmental 
Sciences at the University of Illinois and I do serve as the 
chair of the board on Agriculture of the National Association 
of State Universities and Land Grant Colleges.
    Dr. Phills will speak on behalf of the historically Black 
institutions. I understand that the tribal colleges and the 
U.S. territories will be submitting testimony for the record.
    We support addressing specific issues and needs of these 
institutions. I commend you for your support for research, 
extension and education that is supporting the U.S. food, 
agriculture and natural resource system. A special note of 
appreciation for the establishment and support of the 
initiative for future agriculture and food systems, IFAFS.
    We recommend the expansion and further refinement of these 
programs in the reauthorization of the Farm bill. As we have 
heard from testimony here today and previously, there is 
widespread recognition of the need to increase investments in 
agricultural science and education.
    The Board appreciates and commends the broad spectrum of 
interest groups that have come together to form the National 
Coalition for Food and Agriculture Research, the National CFAR. 
We support their recommendations and that of their membership 
for a doubling in funding for agricultural research, extension 
and education in five years.
    To address the critical issues of the new century, we 
believe a strong science and education system is essential to 
effectively deal with all of the policy issues in the next Farm 
bill.
    In my written testimony, we provide a number of specific 
examples of how the research, extension and education system 
can be better harnessed and coupled with the action agencies of 
the USDA to address all of the issues facing this committee.
    This includes better support for farmers and ranchers, 
building international trade and market opportunities, 
conserving natural resources, better nutrition and health 
including food safety and revitalizing rural economies and 
their communities.
    Let me comment briefly about each of these.
    Better research and education support for farmers and 
ranchers, for example, for using the enhanced and new 
management tools made available by the new Farm bill have the 
greatest impact will be essential.
    In building international trade and market opportunities, 
science and education are the drivers for new technologies. New 
technologies provide the foundation for new economic 
opportunities and value added activities that yield profits and 
positive trade balances.
    Publicly funded research and development has provided the 
U.S. a global competitive advantage. It is essential to enhance 
this advantage because future growth will be in international 
markets.
    On conserving natural resources, continuing to improve the 
stewardship of natural resources and the environment is a very 
critical issue. USDA and U.S. EPA are focused on a new approach 
emphasizing results-based outcomes, rather than regulating 
practices. Under this new approach, we can collaborate with 
USDA and RCS and the National Association of Conservation 
Districts to provide needed cutting edge research and education 
and outreach programs.
    For nutrition and health, we believe using the knowledge 
system can improve this nation's nutritional programs. An 
example is the Family Nutrition Program, FNP, where extension 
staff educate food stamp program participants.
    Universities can partner with USDA on enhanced nutritional 
research to improve understanding of consumers' behavior. 
Through improved diets and better nutrition, health can be 
improved.
    Revitalizing our rural communities is essential. But little 
is really known about the success of various strategies to 
encourage long-term growth and development in rural economies 
and their communities.
    Universities and land grant colleges are well positioned to 
help rural economies and their communities develop strategies 
and programs based on good science, sound research, and using 
effective extension programs to address their futures.
    Research on and education programs about possible new 
economic opportunities based on natural resources, bio-energy 
and biomaterials development and new business structures for 
value added agriculture are needed.
    New models of collaboration between university, Federal 
laboratories and the private sector are needed to ensure that 
results of advanced discovery research are commercialized into 
new products and activities creating jobs, businesses and 
economic growth.
    For research, extension and education, we support the 
intent of Congress to facilitate greater cooperation between 
research and extension and between States.
    We support the intent of Congress to enrich meaningful 
stakeholder development and recommend the reauthorization of 
the National Agricultural Research, Extension, and Education 
Advisory Board.
    We endorse and recommend the continued authorization of a 
balanced portfolio of funding mechanisms, making it possible to 
address long-term needs and short-term issues. Funding from 
both mandated and discretionary accounts is recommended.
    In summary, we are interested in tightly linking the 
research, extension and education system to the critical policy 
issues addressed throughout the Farm bill.
    We believe that the increased investments in research, 
extension and education being called for can most effectively 
address challenges and add value by linking the knowledge 
system tightly with agencies in USDA.
    By doing so the Federal agency and State and land grant 
universities can, as partners, better serve agriculture and 
rural communities.
    We look forward to working with the committee and your 
staff on details for these recommendations.
    Thank you very much.
    The Chairman. Thank you, Dr. Chicoine.
    [The prepared statement of Dr. Chicoine can be found in the 
appendix on page 98.]
    The Chairman. Dr. Phills.

         STATEMENT OF BOBBY PHILLS, CHAIR OF THE 1890 
   LEGISLATIVE COMMITTEE AND DEAN AND DIRECTOR OF LAND GRANT 
   PROGRAMS, COLLEGE OF ENGINEERING SCIENCES, TECHNOLOGY AND 
   AGRICULTURE, FLORIDA A&M UNIVERSITY, TALLAHASSEE, FLORIDA

    Dr. Phills. Mr. Chairman and Members of the Committee, I 
would like to thank you for the opportunity to testify on 
behalf of the 1890 Land Grant Universities.
    I am Bobby R. Phills, Dean and director of Land Grant 
Programs, for the College of Engineering Sciences, Technology 
and Agriculture, at Florida A&M University. I also serve as the 
chair of the 1890 Legislative Committee.
    I would like to begin my testimony by associating myself 
with the testimony and remarks of my colleague, Dr. David 
Chicoine, who serves as the chair of the NASULGC Board on 
Agriculture.
    There are three key issues that I would like to address. 
One is the critical need for increased investments. Two is 
equitable access. Three is appropriate funding mechanisms.
    I am heartened by the recent calls to double the investment 
in agriculture research, extension and education. As we support 
critically needed investments in agriculture research, 
extension and teaching, it is essential that the specific 
funding needs facing the 1890 community also be addressed.
    Chief among these is the establishment of an 1890 Land 
Grant Endowment Fund. The 1890's are Land Grant Universities. 
We did not receive funding benefits from the distribution of 
Federal lands, as did our colleagues in the 1862s.
    Through the years the 1890 universities have struggled with 
inadequate funding resources to meet the especially challenging 
needs of the underserved communities. The proposed endowment 
account could be utilized to help address historical inequities 
of resources and to allow 1890 institutions the opportunity to 
build our capacity to effectively compete for other funding 
resources.
    In the 1998 Agriculture Research, Extension and Education 
Reform Act, a 50 percent State matching requirement was 
established for the 1890's. Since passage of this act, we have 
made significant headway in securing State matching funds for 
our programs.
    We are now recommending increasing the State matching 
requirement to 100 percent. We request that this matching 
requirement be ramped up over the current requirement of 50 
percent with an increase of 10 percent per year over the course 
of five years.
    We recognize that it will be harder for some of our 1890 
universities to meet this matching requirement than others. We 
therefore ask that the Congress provide the Secretary of 
Agriculture greater flexibility in waiving an institution's 
matching requirement in response to the petition from the 
university.
    We also recommend the reauthorization of the following 1890 
programs: The 1890 Capacity Building Grant Program with a 
provision to include 1890 extension as an eligible participant. 
The 1890 Facilities Program, recognizing that quality academic, 
research and outreach programs demand that we have quality 
facilities for training and research exploration.
    The Socially Disadvantaged Program for small and limited 
resource farmers, Section 2501 and the Base Formula Program for 
Research and Extension.
    We further recommend that the minimum funding level or 
floor for both of these base programs, research and extension, 
be raised from 15 and 6 percent to 25 and 15 percent, 
respectively.
    In addition to our needs for increased funding, the 1890's 
need equitable access to existing funding sources so as to 
become fully active participants in the Federal/State land 
grant partnership.
    Currently, the 1890 universities are not eligible for 
formula funds targeted to forestry issues of the McIntyre-
Stennis Program. Many of our institutions are located in States 
where forestry is a major agricultural industry. These 
institutions have forestry and natural resource programs that 
are germane to the forestry industry.
    We recommend an expansion of authorizing funding for 
McIntyre-Stennis and increasing eligible participants to 
include the 1890 universities.
    We welcome the return of West Virginia State College to the 
ranks of 1890 land grant institutions. We recognize the need 
for West Virginia State to retain the base funding that was 
used to reestablish them. We agree that they should be eligible 
to participate in those programs in which the 1890 land grant 
institutions and Tuskegee University are eligible.
    We would hope that additional resources are made available 
to all of the 1890 land grants and Tuskegee, such that West 
Virginia State's participation does not put an additional and 
unintended burden on their colleagues.
    We would like to commend the leadership of the USDA CSREES 
and the land grant community for the development of the new 
IFAFS Competitive Grants Program. The departmental staff and 
others went the extra mile to make sure that our institutions 
were fully aware of the new program and gave us the opportunity 
to compete as equal partners in this process.
    We have achieved some success. However, with enhanced 
support to increase our competitiveness, we will do even better 
in the future.
    While we support competitive grants, we are concerned that 
some mistake the term ``competitive'' with the term 
``quality.'' The Competitive Grants Program does provide a form 
of quality control for awarding funds for relatively short-term 
projects. However, many of the programs that we provide need to 
be sustained over time.
    Short-term competitively awarded projects do not adequately 
serve the longer-term needs of the underserved populations that 
we work with. Formula funds and endowment funds provide the 
necessary sustained funding that is required to truly build 
capacity.
    Again, I would like to thank the committee for the 
opportunity to testify here today. We look forward to working 
with you and our colleagues in the land grant community as we 
move through the reauthorization of the Farm bill.
    We urge you to use this moment, this opportunity, to invest 
in our 1890 universities and in the future of our communities.
    Thank you.
    The Chairman. Thank you very much, Dr. Phills.
    [The prepared statement of Dr. Phills can be found in the 
appendix on page 109.]
    The Chairman. It is now my privilege to introduce Dr. Vic 
Lechtenberg. Let me have a point of personal privilege. Earlier 
in the day, very much earlier this morning, as many of you will 
recall, Senator Stabenow of Michigan you were not here at that 
time Dr. Lechtenberg, but she introduced Dr. Phil Robertson who 
was to appear on the panel before you. She noted that Michigan 
State University was indeed in the Final Four. She was planning 
to head to Minneapolis to watch all of that.
    I would mention parenthetically that Purdue University has 
a Final Four entry with the women's team. So, we shall be 
excited with you about that prospect.
    Dr. Lechtenberg, in addition to being Dean of Agriculture 
at Purdue, has been the Chairman of the Advisory Committee on 
Research that was mandated by the 1996 Farm Bill. He has 
conducted those duties. We had a recent meeting with his panel, 
which was very productive, I think, for many of us.
    Dr. Lechtenberg.

      STATEMENT OF VIC LECHTENBERG, CHAIR OF THE NATIONAL 
   AGRICULTURAL RESEARCH EXTENSION, EDUCATION AND ECONOMICS 
                  ADVISORY BOARD AND DEAN OF 
        AGRICULTURE, PURDUE UNIVERSITY, WEST LAFAYETTE, 
                            INDIANA

    Dr. Lechtenberg. Thank you, Senator. Thank you for the 
opportunity to talk with you for a few minutes about the 
activities of the National Agricultural Research Economics and 
Education Advisory Board.
    As you know well, the Board is a statutory committee 
established by the FAIR Act in 1996 to help foster a successful 
and healthy U.S. food and agriculture system by improving 
USDA's research and education programs.
    Then the Research Reform Act of 1998 added some additional 
responsibilities. I am going to talk briefly about some of the 
responsibilities of the Board and some of the recommendations 
that we have made to the Secretary.
    One of the responsibilities of the Board is to try to 
engage in stakeholder input activities. We have, in our 
recommendations, tried to reflect the collective interests of 
stakeholders from whom we have heard around the nation.
    The members on the board come to their role from 30 
specific constituencies. They really all acted, I think, in a 
manner that truly reflects the best interests of the entire 
food, agriculture and natural resource system.
    They have not been advocates solely for the interests of 
their special constituencies, but have been effective 
spokespersons for the entire research and education system. 
This, in my opinion, has really enhanced the Board's 
credibility and it has made it a pleasure to serve on the Board 
as chair. It would have been less comfortable had they not been 
such good statesmen.
    The recommendations that I am going to talk briefly about 
include several. The first three are recommendations that the 
Board has made very recently to the Secretary of Agriculture 
and previously, a few months, to the Transition Teams as the 
new administration was coming into office.
    They deal with the profile of agriculture and food system 
programs. As you heard from others before the committee today 
and I know in discussions with Dr. Borlaug and others, the 
population of the world has quadrupled in the 20th Century and 
it is really research and technology that have made it possible 
for the world food system to feed that population.
    We think that the challenges that we face in the next 50 
years as we try to cope with environmental stewardship, with 
global trade, with biotechnology, emerging diseases, food 
safety, health issues of diverse populations and so on, are 
challenges that are going to be at least as great as those that 
this world food system has faced in the last 50 years.
    As we face those challenges, we are convinced that public 
sector research in agriculture does not appear to have the 
level of national priority that we think it should have, at 
least not if one judges it on the basis of funding levels that 
have been appropriated.
    The Board believes clearly that it should be a high 
priority, and we further believe that USDA should lead the 
efforts, to elevate the importance of agricultural research and 
education on all fronts--with Federal agencies, with the 
Congress, and with the public.
    We think that there are phenomenal opportunities for 
advances across the entire food and agricultural research 
system and that this system merits that level of priority.
    We further think that USDA, with its other agencies as 
partners, should determine what these research priorities are 
going to be. If USDA is setting these priorities and helping 
determine the new technologies in advance, we are convinced 
that they are going to have greater relevance to the world of 
agriculture and food systems and adoption of those technologies 
is going to be hastened.
    We made a second recommendation in terms of communications. 
We believe that a proactive public communications strategy is 
essential to inform Americans about two things: One, the 
important contributions that the agriculture and food system 
makes to our nation's economy; and two, the importance of 
agricultural research and technology to the underpinning of 
that sector of our economy.
    We think that is essential to help improve and strengthen 
our production and market competitiveness and to help harness 
these new technologies for the benefit of all society.
    We further think that these communications responsibilities 
ought to in some way be separated a bit from the day-to-day 
public relations duties of the office of the Communications 
Director and the Secretary of Agriculture's Office.
    Our third recommendation in our transition statement had to 
deal with partnerships. The partnership among research, 
education, extension, and economics, and units of USDA and the 
land-grant universities and colleges of agriculture is known 
worldwide and respected. It should be strengthened.
    We believe that further incentives are needed to expand 
multi-institutional efforts to help foster interagency 
cooperation and to build the strength of the 1890 and 1994 
institutions.
    In that context, Senator, the 2501 Program to Minority and 
Small Farmers, we believe to be especially important.
    In addition to those three items, we talked about peer 
review. The Merit Review System in USDA really needs to address 
two critical issues: One, are the endeavors that are undertaken 
relevant to solving real problems? Two, is the science of high 
quality?
    The board believes that increasingly USDA's review 
procedures recognize both of these components and it has 
already been mentioned that the Initiative for Future 
Agriculture and Food Systems was, in our opinion, very well 
managed in that regard.
    Also, ARS has revamped its peer review system this past 
year and a half and the Advisory Board has had significant 
input into that process and has been working to review that 
approach. We believe they have done a very good job and that 
that system now is very credible and we want to commend them 
for their efforts.
    Based on our stakeholder symposia, the Advisory Board has 
also made some specific recommendations for priority areas for 
research and education. You have heard some of these words. 
They include some things like: added value and new use 
products, agricultural genomics, education and information 
issues, emerging animal and plant issues including the 
emergency preparedness and response capability, environmental 
stewardship, food safety, human nutrition, communications and 
outreach. All of these, we think are vitally important.
    Then in 1998, the 1998 Reform Act added an additional 
responsibility to the Board to review adequacy of funding. You 
heard some things about that already today as well. The board 
believes that when we have a sector that represents 15 percent 
of the nation's economic output, but only 2 percent of the 
nation's research R&D, that it is grossly underinvested in 
research and technology.
    We strongly support the efforts of the National Coalition 
for Food and Agricultural Research to expand funding and to 
expand broad stakeholder input into the program priorities.
    We have also made recommendations to the Secretary with 
respect to human resources. We believe that USDA is in a unique 
position, with the various partnerships that it has, to enhance 
human capital development and building and we encourage them to 
do everything they can in that arena.
    Other agency cooperation has also been on our radar screen 
and we are encouraging USDA across all the REE missions as well 
as other mission areas to do more to work cooperatively and 
avoid duplication of effort.
    As we think about the future and look at some targets of 
opportunity, we think there should be more connections between 
agriculture and the food, nutrition, and health arena; between 
agriculture and the environmental protection and ecology; 
biomaterials and bio-energy offer exciting opportunities; and 
the preparedness and emergency issues and defenses against bio-
terrorism are critical.
    Structural changes are causing upheavals across many rural 
communities. We think there needs to be some empowerment of 
rural communities in terms of developing local leadership that 
USDA can help foster.
    Advances in other fields of science and technology are 
critical and we would like to see some greater effort on the 
part of USDA to try to capture some of those possibilities and 
opportunities as well.
    There are several features that we think are unique to 
agricultural research that I have outlined in my prepared 
comments and I would be very happy to answer any questions 
about those.
    Mr. Chairman, this concludes my statement. I want to thank 
you and the committee for your support. I would also like to 
take this opportunity to thank all of those across the country 
who volunteered to serve on the Advisory Board and who have 
come before the panel to offer their thoughts and comments in 
the stakeholder symposia and you and other Members of Congress 
who appeared before our session last week. We thank you very 
much.
    [The prepared statement of Mr. Lechtenberg can be found in 
the appendix on page 113.]
    The Chairman. Thank you very much, Dr. Lechtenberg.
    Dr. Phills, I note the careful thought you have given to 
specific ways in which the 1890 universities could be 
strengthened. I appreciate that. That is important information 
for our committee as that portion of the Farm bill is 
formulated.
    Dr. Lechtenberg has picked up your thoughts with regard to 
the Section 2501 situation and the broader Advisory Committee 
recognized that. There appear to be very specific funding 
difficulties with many of the 1890 colleges.
    I just simply note without more editorial comment that I 
appreciate your itemizing those as completely and thoughtfully 
as you have because that will be helpful to us.
    Mr. Phills. Thank you, Mr. Chairman. We just want to be a 
full partner.
    The Chairman. You have noted historically that the 1862 
Morrell Act got off on a different basis than the 1890 Act. 
This doesn't necessarily bring about a whole set of 
inequalities forever, but there are differences in the basis 
here. We need to be cognizant of that.
    Mr. Phills. Yes.
    The Chairman. Dr. Chicoine, the 1998 Agriculture Research 
Bill tried to implement a process to solicit input from those 
who use agricultural research. I just wondered, can you give at 
least some anecdotal or more systematic evidence as to how that 
has proceeded in the colleges of which you have some knowledge?
    Mr. Chicoine. Well, at least the institutions that I have 
more knowledge of than others, in fact there is has been a 
concerted effort to reach out again aggressively not only to 
the organized structure within the food and agriculture sector 
which are commodity groups and farm organizations, but as well 
into the community-based systems we serve through our extension 
programs.
    In our own State of Illinois, there has been substantial 
restructuring of the relationship that we have with our 
customer base, our stakeholders, if you will. They have formed 
coalitions that we interact with on a routine and frequent 
basis that gets beyond the sort of the typical advisory 
committee meetings that typically take place.
    I know others across the country are changing their 
relationships with the people that they work with in similar 
ways.
    The Chairman. You described those meetings more 
graphically. Are they out in the field? Who are the people who 
show up for meetings and interacting with professors such as 
yourself and researchers?
    Mr. Chicoine. Literally, all of the above. Essentially, 
they include both on-campus experiences so that in fact we can 
help people understand what it means to do research, both the 
sort of basic research, but yet research that is applied to 
target specific problems.
    In our case, we actually have a working group structure, 
five working groups that are focused on particular goals that 
we work toward helping achieve. There are some 60 people that 
are involved in each of the working groups. They meet quarterly 
and interact about the activities that are underway, assessing 
how well we are progressing in those activities as well as 
talking about the big picture.
    It is really important when we think about research and 
education, the understanding of the particulars that are going 
on in any particular project are key, but also having guidance 
that is in fact more strategic and global is really important 
for us as we think about the challenges we face and can address 
those challenges with research and education.
    The Chairman. Are any of these meetings covered by local 
press? In other words, is there some greater broadcast of this 
important dialogue and of research generally? Do local people 
find it to be helpful?
    Mr. Chicoine. Well, there is really interest in having 
people communicate with the press about what is going on 
because in fact the press likes to have the localized version 
of what might take place within the context of a land grant 
university's program.
    Individuals that are involved in these working groups are 
very active in communicating in a broad sense within their own 
organization as well as through the media, about what is taking 
place and the confidence that they have from the interaction 
about the progress that we are making with them in addressing 
some of the issues through research and education.
    The Chairman. Dr. Lechtenberg, you have complimented, and I 
think appropriately, the members of the Advisory Commission 
that you have chaired. As you have mentioned, I had the 
privilege of meeting with them just a short time ago, again, as 
they came to some conclusions, at least, as we approach the 
Farm bill.
    Should we have a similar mandate in the next Farm bill, 
that is, to set up such a commission. As we head down the road 
again, we ought to have a broadly based group of leaders in 
agriculture throughout the country, very diverse constituencies 
sort of discussing this all the way along and then helping us 
as we come along in the research part of it.
    We had another group that took a look at the Farm bill as a 
whole and we have had testimony from them in a public meeting 
of the committee. But in this research effort, can you offer 
some advice, and if not today, will you subsequently, as to how 
we ought to approach some thoughts about the Research Advisory 
Group?
    Dr. Lechtenberg. Let me offer a couple and then follow-up 
with maybe some more thoughtful comments. One of the important 
elements, I think, and one of the important features that the 
1996 and modifications in 1998, those two bills, started down a 
path that is important is in terms of stakeholder engagement 
and involvement.
    We have had on the Advisory Board a National Stakeholder 
Symposium each year after the organizational year of the Board 
and we have used input from folks around the country to help 
focus recommendations on what we thought to be some key areas.
    Equally important, in my view, we have regional sessions. 
We have had subgroups of the Board meet in each region of the 
country about once a year and try to get outside this area and 
bring in some thoughts from folks in some focused areas.
    That is one of the things that I would suggest to the 
committee that is vitally important, to maintain some high 
level of pressure for the stakeholder engagement.
    As I mentioned in my testimony, I believe there are two and 
the Board believes there are two really important elements of 
research review. One is the scientific quality which peer 
scientists are perhaps best qualified to provide. Equally 
important, and perhaps more important, we are making sure that 
the efforts in which we are engaged focus on real issues to the 
food, agriculture, and natural resource system.
    Stakeholder engagement is critical to achieving that. I am 
particularly pleased as I think about and look at the way the 
National CFAR group is beginning to come together and be 
organized that it is not just an advocacy group for the 
funding, but it is going to be a strong stakeholder input 
organization as well and help provide some of the direction for 
priority setting that is important.
    I think that is probably the most important issue that I 
would flag to the committee's attention, but I will give a 
little more thought to your question and followup.
    The Chairman. Stimulated by this invitation, perhaps your 
colleagues can pitch in and help you.
    We appreciate very much each of you coming this morning and 
offering your testimony. I think we have had a good hearing 
with regard to research.
    Again, it is the beginning of our consideration of that 
chapter. I would invite all of you and those who have testified 
before, as you have second and third thoughts, to help us, 
because we have time to try to do a quality job in this very 
vital area.
    Having said that, the hearing is adjourned.
    [Whereupon, at 12:05 p.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
      
=======================================================================


                            A P P E N D I X

                             March 27, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7981.001

[GRAPHIC] [TIFF OMITTED] T7981.002

[GRAPHIC] [TIFF OMITTED] T7981.003

[GRAPHIC] [TIFF OMITTED] T7981.004

[GRAPHIC] [TIFF OMITTED] T7981.005

[GRAPHIC] [TIFF OMITTED] T7981.006

[GRAPHIC] [TIFF OMITTED] T7981.007

[GRAPHIC] [TIFF OMITTED] T7981.008

[GRAPHIC] [TIFF OMITTED] T7981.009

[GRAPHIC] [TIFF OMITTED] T7981.010

[GRAPHIC] [TIFF OMITTED] T7981.011

[GRAPHIC] [TIFF OMITTED] T7981.012

[GRAPHIC] [TIFF OMITTED] T7981.013

[GRAPHIC] [TIFF OMITTED] T7981.014

[GRAPHIC] [TIFF OMITTED] T7981.015

[GRAPHIC] [TIFF OMITTED] T7981.016

[GRAPHIC] [TIFF OMITTED] T7981.017

[GRAPHIC] [TIFF OMITTED] T7981.018

[GRAPHIC] [TIFF OMITTED] T7981.019

[GRAPHIC] [TIFF OMITTED] T7981.020

[GRAPHIC] [TIFF OMITTED] T7981.021

[GRAPHIC] [TIFF OMITTED] T7981.022

[GRAPHIC] [TIFF OMITTED] T7981.023

[GRAPHIC] [TIFF OMITTED] T7981.024

[GRAPHIC] [TIFF OMITTED] T7981.025

[GRAPHIC] [TIFF OMITTED] T7981.026

[GRAPHIC] [TIFF OMITTED] T7981.027

[GRAPHIC] [TIFF OMITTED] T7981.028

[GRAPHIC] [TIFF OMITTED] T7981.029

[GRAPHIC] [TIFF OMITTED] T7981.030

[GRAPHIC] [TIFF OMITTED] T7981.031

[GRAPHIC] [TIFF OMITTED] T7981.032

[GRAPHIC] [TIFF OMITTED] T7981.033

[GRAPHIC] [TIFF OMITTED] T7981.034

[GRAPHIC] [TIFF OMITTED] T7981.035

[GRAPHIC] [TIFF OMITTED] T7981.036

[GRAPHIC] [TIFF OMITTED] T7981.037

[GRAPHIC] [TIFF OMITTED] T7981.038

[GRAPHIC] [TIFF OMITTED] T7981.039

[GRAPHIC] [TIFF OMITTED] T7981.040

[GRAPHIC] [TIFF OMITTED] T7981.041

[GRAPHIC] [TIFF OMITTED] T7981.042

[GRAPHIC] [TIFF OMITTED] T7981.043

[GRAPHIC] [TIFF OMITTED] T7981.044

[GRAPHIC] [TIFF OMITTED] T7981.045

[GRAPHIC] [TIFF OMITTED] T7981.046

[GRAPHIC] [TIFF OMITTED] T7981.047

[GRAPHIC] [TIFF OMITTED] T7981.048

[GRAPHIC] [TIFF OMITTED] T7981.049

[GRAPHIC] [TIFF OMITTED] T7981.050

[GRAPHIC] [TIFF OMITTED] T7981.051

[GRAPHIC] [TIFF OMITTED] T7981.052

[GRAPHIC] [TIFF OMITTED] T7981.053

[GRAPHIC] [TIFF OMITTED] T7981.054

[GRAPHIC] [TIFF OMITTED] T7981.055

[GRAPHIC] [TIFF OMITTED] T7981.056

[GRAPHIC] [TIFF OMITTED] T7981.057

[GRAPHIC] [TIFF OMITTED] T7981.058

[GRAPHIC] [TIFF OMITTED] T7981.059

[GRAPHIC] [TIFF OMITTED] T7981.060

[GRAPHIC] [TIFF OMITTED] T7981.061

[GRAPHIC] [TIFF OMITTED] T7981.062

[GRAPHIC] [TIFF OMITTED] T7981.063

[GRAPHIC] [TIFF OMITTED] T7981.064

[GRAPHIC] [TIFF OMITTED] T7981.065

[GRAPHIC] [TIFF OMITTED] T7981.066

[GRAPHIC] [TIFF OMITTED] T7981.067

[GRAPHIC] [TIFF OMITTED] T7981.068

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 27, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T7981.079

[GRAPHIC] [TIFF OMITTED] T7981.080

[GRAPHIC] [TIFF OMITTED] T7981.069

[GRAPHIC] [TIFF OMITTED] T7981.070

[GRAPHIC] [TIFF OMITTED] T7981.071

[GRAPHIC] [TIFF OMITTED] T7981.072

[GRAPHIC] [TIFF OMITTED] T7981.073

[GRAPHIC] [TIFF OMITTED] T7981.074

[GRAPHIC] [TIFF OMITTED] T7981.075

[GRAPHIC] [TIFF OMITTED] T7981.076

[GRAPHIC] [TIFF OMITTED] T7981.077

[GRAPHIC] [TIFF OMITTED] T7981.078

                                   - 

</pre></body></html>
